<html>
<title> - SHORT SEA SHIPPING: REBUILDING AMERICA'S MARITIME INDUSTRY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                


 
       SHORT SEA SHIPPING: REBUILDING AMERICA'S MARITIME INDUSTRY

=======================================================================

                                (116-23)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                               ______                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-742 PDF            WASHINGTON : 2020                            
                             
                             
                             
                             
                             
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                 SEAN PATRICK MALONEY, New York, Chair
ELIJAH E. CUMMINGS, Maryland         BOB GIBBS, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
STACEY E. PLASKETT, Virgin Islands   RANDY K. WEBER, Sr., Texas
JOHN GARAMENDI, California           BRIAN J. MAST, Florida
ALAN S. LOWENTHAL, California        MIKE GALLAGHER, Wisconsin
ANTHONY G. BROWN, Maryland           CAROL D. MILLER, West Virginia
CHRIS PAPPAS, New Hampshire, Vice    SAM GRAVES, Missouri (Ex Officio)
    Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chair, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     1
    Prepared statement...........................................     2
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     3
    Prepared statement...........................................     3
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure, prepared statement.............................    37
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    38

                               WITNESSES
                                Panel 1

Rear Admiral Mark H. Buzby, U.S. Navy (Ret.), Administrator, 
  Maritime Administration:

    Oral statement...............................................     4
    Prepared statement...........................................     5

                                Panel 2

Jonathan Nass, Chief Executive Officer, Maine Port Authority:

    Oral statement...............................................    17
    Prepared statement...........................................    19
James Weakley, President, Lake Carriers' Association:

    Oral statement...............................................    20
    Prepared statement...........................................    21
Larry I. Willis, President, Transportation Trades Department, 
  AFL-CIO:

    Oral statement...............................................    25
    Prepared statement...........................................    27

                       SUBMISSIONS FOR THE RECORD

Letter of June 19, 2019, from Percy R. Pyne, Chairman and CEO, 
  Green Shipping Line, Submitted for the Record by Hon. Maloney..    32
Statement of Kurt Nagle, President and CEO, American Association 
  of Port Authorities, Submitted for the Record by Hon. Maloney..    38
``America's Marine Highways,'' Fact Sheet, Maritime 
  Administration, Submitted for the Record by Hon. Maloney.......    40
``America's Marine Highway Program,'' Brochure, Maritime 
  Administration, Submitted for the Record by Hon. Maloney.......    42

                                APPENDIX

Questions from Hon. Alan S. Lowenthal for Rear Admiral Mark H. 
  Buzby, U.S. Navy (Ret.), Administrator, Maritime Administration    45
Questions from Hon. Alan S. Lowenthal for Jonathan Nass, Chief 
  Executive Officer, Maine Port Authority........................    46
Questions from Hon. Bob Gibbs for James Weakley, President, Lake 
  Carriers' Association..........................................    46
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             June 17, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Coast Guard and Maritime 
Transportation
    FROM:   Staff, Subcommittee on Coast Guard and Maritime 
Transportation
    RE:       Subcommittee Hearing on ``Short Sea Shipping: 
Rebuilding America's Maritime Industry''

                                PURPOSE

    The Subcommittee on Coast Guard and Maritime Transportation 
will meet on Wednesday, June 19, 2019, at 2:00 p.m. in 2167 
Rayburn House Office Building to examine the state of short sea 
shipping in the United States. The Subcommittee will hear from 
the United States Maritime Administration, Maine Port 
Authority, Lake Carriers' Association, and Transportation 
Trades Department, AFL-CIO.

                               BACKGROUND

    Short sea shipping (SSS) refers to the waterborne 
transportation of commercial freight between domestic ports 
(from one port in the Unites States to another port in the 
United States) through the use of inland and coastal waterways. 
Since vessels operating in SSS are required by the Jones Act to 
be built, owned, and crewed by United States citizens, an 
increased domestic trade would result in significant 
development for the U.S. maritime industry.
    The Department of Transportation's (DoT) Maritime 
Administration (MARAD) has determined that increased SSS would 
result in a number of ``public benefits'' \1\ including:
---------------------------------------------------------------------------
    \1\ See https://www.maritime.dot.gov/grants/marine-highways/marine-
highway
---------------------------------------------------------------------------
    <bullet>  Creating and sustaining jobs on U.S. vessels and 
in U.S. ports and shipyards;
    <bullet>  Increasing the state of good repair of the U.S. 
transportation system by reducing maintenance costs from wear 
and tear on roads and bridges; \2\
---------------------------------------------------------------------------
    \2\ Francesca Medda & Lourdes Trujillo (2010) Short-sea shipping: 
an analysis of its determinants, Maritime Policy & Management, 37:3, 
285-303, DOI: 10.1080/03088831003700678
---------------------------------------------------------------------------
    <bullet>  Increasing the environmental sustainability of 
the U.S. transportation system by using less energy and 
reducing air emissions per ton-mile of freight moved; and
    <bullet>  Increasing national security by adding to the 
nation's strategic sealift resources.\3\
---------------------------------------------------------------------------
    \3\ Development of Short Sea Shipping: Hearing before the 
Subcommittee on Coast Guard and Maritime Transportation of the House 
Committee on Transportation and Infrastructure, 116th Congress. 2 
(2007) (Testimony of Sean Connaughton.
---------------------------------------------------------------------------
    An opportunity may exist to develop a new SSS policy that 
will promote the continued development of this method of 
transportation. While MARAD established the ``America's Marine 
Highway Program'' and a number of limited SSS services exist 
that take advantage of that resource, the system remains 
underutilized. For example, in Europe, shipping accounts for 37 
percent of intra-EU trade.\4\ Conversely, in the U.S., there 
are more than 25,000 miles of coastal, inland, and intracoastal 
waterways that move more than 1.4 billion tons of freight 
annually which represents approximately only 2 percent of the 
domestic freight.\5\ Despite their inherent efficiencies, 
domestic coastal and Great Lakes shipping carry barely half as 
much cargo today as they did in 1960.\6\
---------------------------------------------------------------------------
    \4\ See European Community Shipowners' Associations. Short Sea 
Shipping. https://www.ecsa.eu/sites/default/files/publications/
ECSA_SSS_Download%201_0.pdf
    \5\ https://www.researchgate.net/publication/248989077_Short-
sea_shipping_
An_analysis_of_its_determinants
    \6\ See CRS R44831 Revitalizing Coastal Shipping for Domestic 
Commerce. May 2, 2017. https://crsreports.congress.gov/product/pdf/R/
R44831
---------------------------------------------------------------------------
    The majority of water freight shipping systems in the U.S. 
operate on the Mississippi River, the Great Lakes, and the St. 
Lawrence Seaway, and typically transport bulk cargoes. Bulk 
cargo typically consists of commodities that are transported in 
large unpackaged quantities. SSS is one of the most cost-
effective ways to move heavy, lower value, and non-time-
sensitive freight (as SSS is a slower mode of transportation 
than truck, rail, or air). The types of vessels that could be 
utilized in new SSS trades include towing, small and medium 
cargo, and roll-on/roll-off vessels.

POTENTIAL BENEFITS OF SSS

    Some of the potential benefits of SSS include:
    <bullet>  Improved Freight Mobility: The volume of freight 
transported in the U.S. is expected to continue increasing in 
the coming years. Also expected to increase is congestion on 
both our roadways (where trucks carry more than 70 percent of 
freight by weight) and our rail networks. Increased SSS 
capacity could offer freight shippers an additional 
transportation option and help alleviate increased surface 
congestion with less federal investment.
    <bullet>  Reduced Environmental Impact: Transportation on 
SSS vessels can have significant energy efficiencies over land-
based modes of transportation. On average, trucks can carry one 
ton of freight approximately 145 miles on a gallon of diesel 
fuel and rail achieves 477 ton-miles per gallon. Meanwhile, a 
tug and barge operation can get as much as 647 ton-miles of 
freight to a gallon of fuel and self-propelled vessels may 
achieve an even greater rate of energy efficiency.\7\ Shifting 
freight traffic to waterborne commerce can reduce associated 
vehicle emissions and improve air quality.\8\
---------------------------------------------------------------------------
    \7\ Texas Transportation Institute, Center for Ports and Waterways, 
A Modal Comparison of Domestic Freight Transportation Effects on the 
General Public: 2001-2014, prepared for the National Waterways 
Foundation, January 2017, p. 7.
    \8\ Mulligan, Robert F. and Lombardo, Gary A., Short Sea Shipping: 
Alleviating the Environmental Impact of Economic Growth. World Maritime 
University Journal of Maritime Affairs, Vol. 5, No. 2, pp. 55-70, 2006. 
Available at SSRN: https://ssrn.com/abstract=1028845
---------------------------------------------------------------------------
    <bullet>  Increasing Mariner Jobs: As the U.S.-flagged 
international fleet has declined, MARAD has identified a 
shortage of 1,800 mariners. That shortage has a direct negative 
effect on the Department of Defense's (DoD) readiness. 
Increasing the number of small and mid-sized vessels operating 
in the domestic trades would provide additional platforms on 
which American mariners can work. Additional opportunities for 
maritime employment would grow the pool of mariners available 
for military sealift.
    <bullet>  Increased Shipbuilding Capacity: Under current 
law, vessels carrying cargo between U.S. ports are required to 
be owned, crewed, and built by United States citizens. SSS 
vessel construction and repair in U.S. shipyards would help to 
assure the DoD's access to skilled shipbuilding workers and 
facilities and promote job creation in the commercial 
shipbuilding sector.

POTENTIAL IMPEDIMENTS TO SSS

    Factors that could limit the development of SSS include:
    <bullet>  Duplicated Harbor Maintenance Tax: As reported by 
the Congressional Research Service (CRS) the Harbor Maintenance 
Tax (HMT) is a levy placed on the value of cargo that is 
imported to a port within the United States or that is 
transported between two U.S. ports. The levy is assessed at a 
rate of 0.125 percent of the value of the cargo. The tax is 
assessed only once on cargo that is transported between one 
U.S. port to another; however, cargo that is carried from a 
foreign port may be taxed twice--once upon arrival at the 
initial U.S. port, and again if transported aboard a different 
vessel to another U.S. port. CRS concluded that the tax 
discourages domestic water shipment of import and export 
containers.\9\ CRS also noted the tax could be particularly 
cumbersome for domestic vessel operators carrying containers of 
mixed cargo assembled by consolidators, because these typically 
hold shipments from multiple customers.
---------------------------------------------------------------------------
    \9\ See CRS R41590, Can Marine Highways Deliver?, January 14 2011.
---------------------------------------------------------------------------
    <bullet>  Shipper Reluctance: There exists a general 
reluctance among freight shippers to try new, relatively 
unproven, modes of transportation. Many shippers rely on trucks 
or trains because they are known modes, and consequently, they 
may be reluctant to utilize SSS even if it is marginally more 
cost effective.
    <bullet>  Ship Financing: It is difficult for potential 
shipbuilders to secure financing for new ship construction if 
they do not have freight contracts in place. Freight and 
logistics companies are often unwilling to enter into those 
contracts for a service that has not proven itself and at a 
cost that cannot be specified before the ship is delivered from 
a shipyard and placed into service. To help overcome ship 
financing barriers, SSS proponents have advocated allowing the 
Capital Construction Fund (CCF) program to be used for SSS. The 
CCF is a tax-deferred program that allows ship owners to defer 
Federal income taxes on their deposits as long as the 
withdrawals are used to build ships in a U.S. shipyard (similar 
to an IRA for ship owners). Others have recommended increased 
use and funding of MARAD's Title XI loan guarantee program 
under which the Federal Government will guarantee the mortgage 
of a ship owner for up to 30 years.
    <bullet>  Insufficient Port Facilities: Currently, major 
container ports are built to service large, ocean-going 
vessels. It is likely any additional cargo that would enter the 
Marine Highway System would enter at these ports which are 
equipped with large cranes to service large container ships. An 
expansion of SSS may require the construction of right-sized 
infrastructure that can service SSS vessels, many of which may 
utilize Roll-on/Roll-off technology (meaning that cargo can be 
driven or pushed on and off the vessel) rather than crane 
technology. Additional infrastructure investments may be 
necessary in smaller ports to ensure their ability to receive 
SSS cargoes.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Figure 1--America's Marine Highway Program, Maritime Administration. 
 Designation of these Marine Highway Routes is the first step towards 
reducing landside congestion by focusing public and private efforts on 
    increasing the amount of cargoes and passengers transported on 
  commercially navigable waterways. See https://www.maritime.dot.gov/
                 grants/marine-highways/marine-highway.

FEDERAL INVOLVEMENT

    Congress established America's Marine Highway Program 
(AMHP) at MARAD in 2007 in order to reduce landside congestion 
through the designation of Marine Highway Routes. In 2012, 
Congress expanded the scope of the program to provide support 
for projects that generate public benefits by utilizing Marine 
Highway Routes. Though the AMHP has existed for over a decade 
and a number of projects have been designated as SSS routes, 
the system remains underutilized. The Consolidated 
Appropriations Act of 2019, signed by the President on February 
15, 2019, provided $7,000,000 for the AMHP to be used for 
Marine Highway Grants for the development and expansion of 
documented vessels, and port and landside infrastructure.
    The AMHP currently includes 25 all-water Marine Highway 
Routes that serve as extensions to the surface transportation 
system.\10\ Routes are designated by the Secretary of 
Transportation because they can offer relief to traffic 
congestion on landside corridors, address excessive air 
emissions, or other environmental concerns and challenges, or 
provide new transportation options.
---------------------------------------------------------------------------
    \10\ See https://www.maritime.dot.gov/grants/marine-highways/
marine-highway
---------------------------------------------------------------------------
    MARAD identifies specific SSS opportunities through the 
Office of Marine Highways. Every 6 months, MARAD reviews 
applications and designates new Marine Highway Projects. SSS 
operators can receive designation through the Office of Marine 
Highways if their proposal has the potential to offer public 
benefits and long-term sustainability without long-term Federal 
support. Once a project has been received designation as a 
Marine Highway Project, it receives preferential treatment for 
Marine Highway Grants or any future federal assistance from the 
DoT and MARAD.
    MARAD released its last report on the AMHP in April 2011, 
where it summarized the motivations behind the Program and 
federal support required to capture environmental, economic, 
and security benefits of the Program in addition to steps for 
implementation.\11\ The program can work in conjunction with 
other MARAD grants to improve port and terminal intermodal 
infrastructure, as well as in collaboration with the 
Environmental Protection Agency's SmartWay and Clean Ports 
initiatives.
---------------------------------------------------------------------------
    \11\ See https://www.maritime.dot.gov/sites/marad.dot.gov/files/
docs/intermodal-systems/marine-highways/3051/
maradamhreporttocongress.pdf. The report also includes recommendations 
for leveraging the program through paired grants.
---------------------------------------------------------------------------
    While MARAD issued grants totaling $7 million in 2010, the 
AMHP has not provided the investment, incentives, or assistance 
needed to jumpstart a robust SSS industry. In 2016 and 2017 the 
Program received $5 million from Congress and another $7 
million in 2018.

                              WITNESS LIST

PANEL I

    <bullet>  Rear Admiral Mark H. Buzby, USN, Ret., 
Administrator, Maritime Administration

PANEL II

    <bullet>  Mr. Jon Nass, Chief Executive Officer, Maine Port 
Authority
    <bullet>  Mr. James Weakley, President, Lake Carriers' 
Association
    <bullet>  Mr. Larry Willis, President, Transportation 
Trades Department, AFL-CIO


       SHORT SEA SHIPPING: REBUILDING AMERICA'S MARITIME INDUSTRY

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:18 p.m., in 
room 2167, Rayburn House Office Building, Hon. Sean Patrick 
Maloney (Chairman of the subcommittee) presiding.
    Mr. Maloney. The subcommittee will come to order. I ask 
unanimous consent that the Chair be authorized to declare a 
recess during today's hearing. Without objection, so ordered.
    Good afternoon. Welcome to today's hearing on short sea 
shipping. I do apologize to our witnesses, the Members have 
been detained by votes on the House floor, which just concluded 
moments ago, so we apologize for keeping you all waiting. It 
was unavoidable, unfortunately.
    So on March 6, the subcommittee examined the state of the 
maritime industry. In that hearing, the Maritime Administrator 
and industry representatives repeated a common message: When it 
comes to growing the American maritime industry, cargo is king.
    Now, if you have driven on I-95 recently, you know full 
well that there is an excess of cargo and, therefore, traffic, 
on our roads. By 2045, truck freight volume is expected to grow 
by 43 percent, which without major infrastructure improvements, 
will further clog our roads and highways. This increased 
traffic would be significantly alleviated if we shifted cargo 
to our waterways through short sea shipping.
    Short sea shipping is the waterborne transportation of 
commercial freight between domestic ports through inland and 
coastal waterways. While our friends in Europe have placed 
short sea shipping at the center of their transportation 
policies, moving over 40 percent of all European freight on 
oceans and inland rivers, we have failed to leverage our 
existing programs to provide additional support for our 
domestic shipping industry. An invigorated short sea shipping 
industry would not only increase the state of good repair of 
the U.S. roads and bridges by reducing maintenance costs from 
wear and tear and improve air quality and emissions, but it 
would also help to address the critical shortage in our 
merchant mariner workforce.
    Administrator Buzby and other Government officials have 
repeatedly stated that we have 1,800 fewer mariners than what 
is needed to address America's sealift needs. That gap would 
quickly begin to close if we fully utilized America's marine 
highway and began shipping cargo on coastwise ships.
    In order to rigorously promote short sea shipping, we must 
develop a national multimodal transportation and infrastructure 
plan that prominently features maritime transportation. The 
Maritime Administration claims to be working to maintain the 
health of the merchant marine, yet in the 5 years since 
Congress tasked MARAD with the development of a comprehensive 
maritime strategy, we have seen little movement to create a 
comprehensive plan to promote short sea shipping.
    So I look forward to hearing from Admiral Buzby on the 
status of that strategy, particularly as it pertains to short 
sea shipping. I also look forward to hearing from our civilian 
panel on the benefits of short sea shipping, the status of 
projects that currently exist, and what Congress and the 
administration can be doing to advance the use of marine 
highways.
    Now I would call on the ranking member, Mr. Gibbs, for his 
opening remarks.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
 Congress from the State of New York, and Chair, Subcommittee on Coast 
                   Guard and Maritime Transportation
    Good afternoon and welcome to today's hearing on Short Sea 
Shipping. On March 6th, the Subcommittee examined the ``State of the 
Maritime Industry.'' In that hearing, the Maritime Administrator and 
industry representatives repeated a common message--when it comes to 
growing the American maritime industry, ``cargo is king.''
    If you've driven on Interstate 95 recently you know full well that 
there is an excess of cargo, and therefore traffic, on our roads. By 
2045 truck freight volume is expected to grow by 43 percent which, 
without major infrastructure investments, will further clog our roads 
and highways. This increased traffic would be significantly alleviated 
if we shifted cargo to our waterways through Short Sea Shipping.
    Short Sea Shipping is the waterborne transportation of commercial 
freight between domestic ports through inland and coastal waterways. 
While our friends in Europe have placed Short Sea Shipping at the 
center of their transportation policies, moving over 40 percent of all 
European freight on oceans and inland rivers, we have failed to 
leverage our existing programs or provide additional support for our 
domestic shipping industry.
    An invigorated Short Sea Shipping industry would not only increase 
the state of good repair of the U.S. roads and bridges by reducing 
maintenance costs from wear and tear and improve air quality and 
emissions, but would help to address the critical shortage in our 
merchant mariner workforce. Administrator Buzby and other government 
officials have repeatedly stated that we have 1,800 fewer mariners than 
what is needed to address America's sealift needs. That gap would 
quickly begin to close if we fully utilized America's marine highways 
and began shipping cargo on coastwise ships.
    In order to rigorously promote Short Sea Shipping, we must develop 
a national multi-modal transportation and infrastructure plan that 
prominently features maritime transportation. The Maritime 
Administration claims to be working to maintain the health of the 
merchant marine. Yet in the 5 years since Congress tasked MARAD with 
the development of a comprehensive maritime strategy we have seen 
little movement to create a comprehensive plan to promote Short Sea 
Shipping. I look forward to hearing from Admiral Buzby on the status of 
that strategy, particularly as it pertains to Short Sea Shipping. I 
also look forward to hearing from our civilian panel on the benefits of 
Short Sea Shipping, the status of projects that currently exist, and 
what Congress and the Administration can be doing to advance the use of 
marine highways.

    Mr. Gibbs. Thank you, Chairman.
    Increased use of waterborne transportation of commercial 
freight between domestic U.S. ports--short sea shipping--could 
expand the limited and increasingly crowded freight 
transportation capacity of the Nation's rail and road system 
without the need for large additional public investments. 
Historically, freight has been moved by water in the United 
States, and a large portion of bulk shipments still move by 
water. Increased availability of trains and trucks have reduced 
the usage of water transportation for movement of higher value 
freight.
    Water is far and away the most fuel efficient way to move 
freight, but since it is geographically confined by where there 
is water, it is limited in its ability to get goods to the 
ultimate destination, the last-mile problem, and every loading, 
unloading, and reloading of freight adds expense and time 
delays.
    Increased freight volumes, limited dollars to invest in new 
infrastructure, increased road congestion, and increased 
interest in reducing air emissions have also been cited in 
recent years as reasons that short sea shipping should be 
examined as an alternative source of added transportation 
capacity. However, movement of container freight on America's 
waterways has not increased. The reasons given include the 
configuration of large ports to handle large vessels, a 
reluctance of freight shippers to move to new modes of 
transportation, and the difficulty for potential shipbuilders 
to secure financing for new ship construction if they do not 
have freight contracts in place to prove that they can pay off 
the vessels' mortgages.
    In 2007, Congress established a short sea transportation 
program to promote the domestic transportation of freight by 
water. I look forward to hearing from the witnesses today about 
whether that program has worked and what additional public or 
private actions can be taken to promote such transportation.
    Mr. Chairman, I look forward to the hearing today, and I 
yield back.
    [Mr. Gibbs's prepared statement follows:]

                                 
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    Increased use of waterborne transportation of commercial freight 
between domestic U.S. ports--short sea shipping--could expand the 
limited, and increasingly crowded, freight transportation capacity of 
the Nation's rail and road system without large additional public 
investment.
    Historically, freight moved by water in the United States, while a 
large portion of bulk shipments still move by water. Increased 
availability of trains and trucks have reduced the water movement of 
higher value freight.
    Water is far and away the most fuel efficient way to move freight, 
but since it is geographically confined, it is limited in its ability 
to get goods to their ultimate destination, the last mile problem, and 
every loading, unloading and reloading of the freight adds expense and 
time delays.
    Increased freight volumes, limited dollars to invest in new 
infrastructure, increased road congestion, and increased interest in 
reducing air emissions have all been cited in recent years as reasons 
that short sea shipping should be examined as an alternative source of 
added transportation capacity.
    However, movement of container freight on America's waterways has 
not increased. Reasons given include, configuration of large ports to 
handle large vessels; the reluctance of freight shippers to move to new 
modes transportation; and, the difficulty for potential shipbuilders to 
secure financing for new ship construction if they do not have freight 
contracts in place to prove that they can pay off the vessel's 
mortgages.
    In 2007, Congress established the Short Sea Transportation program 
to promote the domestic transportation of freight by water. I look 
forward to hearing from the witnesses today about whether that program 
has worked, and what additional public or private actions can be taken 
to promote such transportation.

    Mr. Maloney. I thank the gentleman.
    I would like to welcome the witness on our first panel, 
Rear Admiral Mark H. Buzby, Administrator of the Maritime 
Administration.
    Thank you for being here today, sir. I look forward to your 
testimony.
    Without objection, our witness' full statement will be 
included in the record.
    Since your written testimony has been made part of the 
record, sir, the subcommittee requests that you limit your oral 
testimony to 5 minutes. Thank you for being here. You may 
proceed.

  TESTIMONY OF REAR ADMIRAL MARK H. BUZBY, U.S. NAVY (RET.), 
             ADMINISTRATOR, MARITIME ADMINISTRATION

    Admiral Buzby. Right. Thank you.
    Good afternoon, Chairman Maloney, Ranking Member Gibbs, 
members of the subcommittee, I appreciate the opportunity to 
testify this afternoon on the Maritime Administration's efforts 
to foster, promote, and develop short sea shipping through 
America's Maritime Highway Program. The marine highway system 
consists of our Nation's navigable waterways, including rivers, 
bays, channels, the Great Lakes, St. Lawrence Seaway System, 
coastal and open ocean routes.
    As established by Congress, America's Marine Highway 
Program aims to reduce road congestion, emissions, conserve 
energy, improve safety, and reduce landside infrastructure 
costs. Marine transport of goods offers a safe and efficient 
option for shippers. One study estimates that in 2014, 
congestion on our roads, bridges, railways, and in ports cost 
the United States as much as $160 billion; trucks accounting 
for $28 billion of this cost. Overall, the volume of imports 
and exports transported by our freight system is expected to 
more than double over the next 30 years. This will have an 
implication for ports which handle approximately 70 percent of 
America's international trade by volume. Expanding existing or 
establishing new marine highway services on commercially 
navigable waterways is a cost-effective way to meet some of our 
freight transportation needs and relieve landside congestion.
    America's Marine Highway Program designates routes and 
projects and provides grant funding. As of this month, DOT has 
designated 25 marine highway routes compromising a significant 
portion of our navigable waterways. A semiannual call for 
projects helps to identify concepts for new or expansion of 
existing marine highway services that have the potential to 
offer public benefits and long-term sustainability without 
long-term financial support from the Federal Government. To 
date, DOT has awarded $24 million in competitive marine highway 
grants, supporting at least six new and two existing marine 
highway services. America's Marine Highway Program grant-funded 
services moved 35,215 20-foot equivalent units, or TEUs, in 
fiscal year 2016 by water, saving an estimated $1.5 million in 
road maintenance and congestion costs. These savings were from 
the M-64 Express Marine Highway Service, running between 
Hampton Roads and Richmond, Virginia, the only grant-funded 
marine highway service operating in the United States at that 
time.
    In fiscal year 2017, savings calculations were estimated at 
$3.6 million and increased to more than $4.9 million in fiscal 
year 2018; a result of a new Baton Rouge to New Orleans service 
and a New York Cross Harbor service. While the numbers may be 
small relative to the initial grant, the equipment will operate 
for decades, in most cases, and the reductions in 
infrastructure damage, emissions, and fatalities will be felt 
for years. We are considering specific ways the Maritime 
Administration can maximize America's highway benefits, 
particularly using our marine highways to move Federal cargo. 
We are also exploring partnerships with the EPA Smart Way 
program and other such programs to tout the efficiencies of 
utilizing the marine highway system.
    Finally, the Maritime Administration has been proactive in 
engaging with local and regional officials and private 
entrepreneurs in analyzing specific logistical challenges where 
a waterborne solution may offer the best and most sustainable 
approach.
    We are proud of the effect that the America's Maritime 
Highway Program has had in support of the Jones Act, and are 
excited about the momentum it is building in such a short 
period of time, but we are not done. We believe that continued 
expansion of the use of marine highways can greatly benefit the 
marine industry generally, while reducing road traffic and 
emissions and landside infrastructure costs.
    Thank you for the opportunity to testify this afternoon, 
and I look forward to your questions.
    [Admiral Buzby's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Rear Admiral Mark H. Buzby, U.S. Navy (Ret.), 
                 Administrator, Maritime Administration
    Good afternoon, Chairman Maloney, Ranking Member Gibbs and members 
of the Subcommittee. I appreciate the opportunity to testify today on 
the Maritime Administration's (MARAD) efforts to foster, promote and 
develop short sea shipping in the United States through the America's 
Marine Highway Program (AMHP).
    The Marine Highway System consists of our Nation's navigable 
waterways including rivers, bays, channels, the Great Lakes, the Saint 
Lawrence Seaway System, coastal, and certain open-ocean routes. These 
navigable waterways touch 38 states plus the District of Columbia and 
Puerto Rico. The purpose of the AMHP is to further incorporate these 
waterways into the overall U.S. transportation system, especially where 
marine transportation services are the most efficient, effective, and 
sustainable transportation option.
    Congress established the AMHP through the Energy Independence and 
Security Act of 2007, P.L. 110-140. Recognizing the potential in the 
program, in following years Congress expanded and modified the program. 
The Coast Guard and Maritime Transportation Act of 2012, P.L. 112-213, 
expanded the program to include efforts to increase the utilization and 
efficiency of domestic freight and passenger transportation on Marine 
Highway Routes between U.S. ports. The National Defense Authorization 
Act of Fiscal Year 2016, P.L. 114-92, broadened the definition of short 
sea shipping to include more kinds of cargo and cargo or freight 
vehicles carried aboard commuter ferry boats.
            purposes of the america's marine highway program
    The AMHP is intended to, among other things, reduce travel delays 
caused by congestion, cut greenhouse gas emissions, conserve energy, 
improve safety, and reduce landside infrastructure costs. Marine 
transport of goods offers a safe and efficient option for shippers as 
reflected in the tables below: \1\
---------------------------------------------------------------------------
    \1\ Tables created from data in, A Modal Comparison of Domestic 
Freight Transportation Effects on the General Public, Texas 
Transportation Institute, Center for Ports and Waterways, as amended 
(2017): http://nationalwaterwaysfoundation.org/documents/
Final%20TTI%20Report
%202001-2014%20Approved.pdf

----------------------------------------------------------------------------------------------------------------
                 Emissions                                 Safety                        Fuel Efficiency
----------------------------------------------------------------------------------------------------------------
                                    Tons of
                                      GHG/                            Ratio of
               Mode                 Million           Mode          Fatalities/          Mode          Ton-Miles/
                                      Ton-                          Million Ton-                         Gallon
                                     Miles                             Miles
----------------------------------------------------------------------------------------------------------------
Barge.............................  15.6     Barge................       1       Barge...............        647
----------------------------------------------------------------------------------------------------------------
Railroads.........................  21.2     Railroads............    21.9       Railroads...........        447
----------------------------------------------------------------------------------------------------------------
Truck.............................  154.1    Truck................    79.3       Truck...............        145
----------------------------------------------------------------------------------------------------------------

    Congestion on our surface transportation system significantly 
impacts our economic prosperity and quality of life. One study 
estimates that in 2014 congestion cost America's urban commuters an 
estimated $160 billion in wasted time and fuel; trucks account for $28 
billion of this cost.\2\ Overall, the volume of imports and exports 
transported by our freight system is expected to more than double over 
the next 30 years. This will have implications for ports, which handle 
approximately 70 percent of America's international trade by volume.\3\ 
Most of this additional cargo will ultimately move along our surface 
transportation corridors, many of which are currently at or beyond 
capacity.
---------------------------------------------------------------------------
    \2\ 2015 Urban Mobility Scorecard, Texas A&M Transportation 
Institute and INRIX (2015), 2015 Urban Mobility Scorecard [https://
d2dtl5nnlpfr0r.cloudfront.net/tti.tamu.edu/documents/mobility-
scorecard-2015.pdf].
    \3\ BTS Freight Facts and Figures 2016, Figure 2-9, BTS Freight 
Facts and Figures 2016 [https://www.bts.gov/bts-publications/freight-
facts-and-figures/freight-facts-figures-2017-chapter-2-freight-moved].
---------------------------------------------------------------------------
    Expanding existing or establishing new marine highway services on 
commercially navigable waterways is a cost-effective way to meet our 
freight transportation needs and relieve landside congestion.
    The AMHP consists of three elements: Route designation, project 
designation, and grants.
                         marine highway routes
    Marine Highway Routes are commercially navigable coastal, inland, 
and intracoastal waters of the United States as designated by the 
Secretary. This includes connections between U.S. ports and Canadian 
ports on the Great Lakes-Saint Lawrence Seaway System, and non-
contiguous U.S. ports. Marine Highway Routes are a component of the 
Nation's surface transportation system. Public entities may apply to 
MARAD at any time to request that the Secretary of Transportation 
designate (i.e., establish) a Marine Highway Route. To be eligible for 
designation, at a minimum a route must relieve landside congestion 
along coastal corridors or promote short sea transportation, as well as 
meet AMHP objectives described in regulations.\4\ As of this month, DOT 
has designated 25 Marine Highway Routes comprising a significant 
portion of our navigable waterways.\5\ The Marine Highway Routes are 
numbered akin to the interstate highways that they generally parallel. 
The latest route to be designated, the M-H1, are the waters in and 
around Hawaii.
---------------------------------------------------------------------------
    \4\ 46 CFR 393.2
    \5\ See attachment 1.
---------------------------------------------------------------------------
                        marine highway projects
    Marine Highway Projects are planned or contemplated new services, 
or expansions of existing services, on designated Marine Highway 
Routes, that seek to provide new modal choices to shippers, reduce 
transportation costs, and/or provide public benefits, which include 
reduced air emissions, reduced road maintenance costs, and improved 
safety and resiliency impacts. These projects represent concepts for 
new, or expansion of existing, marine highway services that have the 
potential to offer public benefits and long-term sustainability without 
long-term Federal support. The desired outcome is that designated 
projects will help start new businesses or expand existing ones to move 
more freight or passengers along America's navigable coastal, inland, 
and intra-coastal waters. The AMHP publicizes a semi-annual ``Call for 
Projects.'' In response, applicants propose projects and the Secretary 
of Transportation may designate qualified projects as ``Marine Highway 
Projects.''
                         marine highway grants
    Competitive grants form the third component of the AMHP. Only 
Marine Highway Projects designated by the Secretary are eligible to 
apply for Marine Highway Grants. Grantees may use the funds to develop 
and expand the availability of documented vessels and port and landside 
infrastructure. Only projects the Secretary designates are eligible to 
apply for Marine Highway Grants. Either the grant applicant, or private 
entities with endorsement by the applicant, are eligible to apply for 
grant funding. There are currently 25 designated projects.\6\
---------------------------------------------------------------------------
    \6\ See attachment 2.
---------------------------------------------------------------------------
    To date, DOT has awarded $24 million in Marine Highway Grants 
supporting six new and two existing marine highway services. In two 
instances, we funded vessel construction. In another case, interest 
from users on the inland waterways spurred Taylor Manufacturing of 
Louisville, MS, to engineer a ``negative drop'' reach-stacker used to 
load containers into river hopper barges; that equipment had previously 
only been available from foreign sources.
    The AMHP is clearly having an impact. Metrics we gather to measure 
that impact include the number of truck road miles that have been 
eliminated. Using Federal Highway Administration formulas, MARAD 
estimates the public benefits of funded projects in dollars. In FY 2016 
AMHP grant-funded services moved 35,215 twenty-foot equivalent units 
(TEUs) by water saving approximately $1.5 million in road maintenance 
and congestion costs. These savings were from the M-64 Express Marine 
Highway Service, running between Hampton Roads and Richmond, Virginia, 
the only grant funded marine highway service operating in the United 
States at that time. That number has continued to increase. In FY 2017 
savings calculations were an estimated $3.6 million and increased to 
more than $4.9 million in FY 2018. This positive momentum is a result 
of additional new services being added: the Baton Rouge to New Orleans 
Service and the New York Cross Harbor Service. While the numbers may be 
small relative to the initial grant, the equipment will operate for 
decades in most cases, and the reductions in infrastructure damage, 
emissions, and fatalities will be felt for years.
 actions that could expand the america's marine highway program's reach
    We manage the AMHP with an eye toward innovation and constant 
improvement. To that end, we are considering specific ways MARAD can 
maximize the program's effects. First, we are exploring opportunities 
with other Federal entities to transport federally-owned or generated 
cargo using a short sea transportation project when practical or 
available. We are also exploring partnerships with the EPA's Ports 
Initiative and Smart Way Programs, and other such programs, to tout the 
efficiencies and environmental benefits of utilizing the Marine Highway 
System. Finally, MARAD has been proactive in engaging with local and 
regional officials, and private entrepreneurs, in analyzing specific 
logistical challenges where a waterborne solution may offer the best 
and most sustainable approach.
                               conclusion
    We are proud of the effect that the AMHP has had and are excited 
about the momentum it is building in the interest of national security, 
economic success, and the lives of the American people, but we are not 
done. We will continue to support innovation through the AMHP.
    Mr. Chairman, thank you for the opportunity to discuss the AMHP and 
MARAD's efforts to expand short sea shipping opportunities. I 
appreciate the Subcommittee's continuing support for maritime programs 
and I look forward to working with you on advancing maritime 
transportation in the United States. I will be happy to respond to any 
questions you and the members of the Subcommittee may have.
                              attachment 1
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              attachment 2

               List of Designated Marine Highway Projects
------------------------------------------------------------------------
                                                               Marine
              Project Name                Date Established     Highway
------------------------------------------------------------------------
New England Marine Highway Expansion                 2010          M-95
 Project................................
------------------------------------------------------------------------
James River Container Expansion Project.             2010          M-64
------------------------------------------------------------------------
Trans-Hudson Freight Connector Project..             2010          M-95
------------------------------------------------------------------------
Tenn-Tom Freight Project................             2010          M-65
------------------------------------------------------------------------
Detroit/Wayne County Ferry Project......             2010          M-75
------------------------------------------------------------------------
Gulf Atlantic Marine Highway Project....             2010        M-95 &
                                                                   M-10
------------------------------------------------------------------------
Cross Gulf Container Expansion Project..             2010          M-10
------------------------------------------------------------------------
Cross Sound Enhancement Project.........             2010          M-95
------------------------------------------------------------------------
M-55/M-35 Container on Barge Project....             2015        M-55 &
                                                                   M-35
------------------------------------------------------------------------
Potomac River Commuter Ferry Project....             2015         M-495
------------------------------------------------------------------------
New York Harbor Container and Trailer-on-            2015          M-95
 Barge Service..........................
------------------------------------------------------------------------
Baton Rouge-New Orleans Shuttle.........             2016          M-55
------------------------------------------------------------------------
Paducah/McCracken County Container on                2016          M-70
 Barge Marine Highway Project...........
------------------------------------------------------------------------
Illinois Intrastate Shuttle.............             2016          M-55
------------------------------------------------------------------------
Lake Erie Shuttle Service on the M-90...             2016          M-90
------------------------------------------------------------------------
Great Lakes Shuttle Service.............             2017          M-90
------------------------------------------------------------------------
Mid-Atlantic Barge Service..............             2017          M-95
------------------------------------------------------------------------
Container on Barge & Heavy-Lift Corridor             2017          M-69
 Service at Freeport TX.................
------------------------------------------------------------------------
Philadelphia-Canaveral Direct Service...             2017          M-95
------------------------------------------------------------------------
Port of Davisville/Brooklyn/Newark                   2018          M-95
 Container on Barge Service.............
------------------------------------------------------------------------
Harbor Harvest Long Island Sound Project             2018          M-95
------------------------------------------------------------------------
Container on Barge Service on the M-70               2018        M-70 &
 and M-35...............................                           M-35
------------------------------------------------------------------------
South Carolina Ports Authority Container             2018          M-95
 on Barge Service.......................
------------------------------------------------------------------------
Port of Everett Container on Barge                   2018          M-84
 Service................................
------------------------------------------------------------------------
Chambers County Container on Barge                   2018          M-69
 Expansion Service......................
------------------------------------------------------------------------


    Mr. Maloney. I thank the gentleman.
    I will now proceed to questions. I will be observing a 5-
minute rule this afternoon. I will begin by recognizing myself 
for 5 minutes.
    Admiral Buzby, please help us understand what the principal 
barriers are to marine highway development, and please also 
comment on when the Congress can expect to see the national 
maritime strategy, since we have been waiting for some time on 
that document and that strategy. And would you also refer to 
the role that short sea shipping would play in such a strategy.
    Admiral Buzby. Yes, sir. Thank you. I will address that 
strategy piece first.
    As you know, Congress has given us now an extension till 
the 13th of February of next year, 2020, and I fully expect 
that we will present the strategy within that timeline, sir. It 
is currently in interagency coordination, and I will be 
standing by to get it and move it forward to you, sir.
    Mr. Maloney. What can you tell us about it, sir? Give us a 
preview of coming attractions. Don't ruin the ending. I don't 
want any spoilers, but surely after 6 years, we have got to 
have some thoughts on what we are doing, right?
    Admiral Buzby. I can tell you this, foundationally it is 
built on the Merchant Marine Act of 1936, the Jones Act, cargo 
preference. It is built on those things that have kept the 
merchant marine alive and breathing, quite frankly, so that is 
the basis of it.
    I think that you will see that short sea shipping and port 
development and port modernization play a key role, recognizing 
that our ports are our economic gateways to this country, the 
majority of our goods flow through those ports and then are 
distributed through rail, through highways and hopefully 
increasingly through maritime highways. So that will be a key 
element of that, making sure we continue to modernize that flow 
and, of course, preparing the workforce for the future.
    That is a very key element of the strategy to make sure 
that we are modernizing and bringing enough people in, which is 
why the National Security Multi-Mission Vessel program is a 
very key element of that. So while you haven't seen it yet, a 
lot of the things that we are doing right now, you will 
recognize in that strategy when you see it. We haven't stopped 
waiting for that to be approved to move forward.
    Mr. Maloney. And short sea shipping?
    Admiral Buzby. Short sea shipping, the barriers, I think, 
that are keeping us from really surging ahead thus far, I would 
say, number one, is probably awareness, education of shippers, 
that there are these ultimate means. And quite frankly, it is 
understanding the business case that exists to move things by 
water.
    It takes a little digging into and understanding, 
especially when you are just used to throwing it on the back of 
a truck or throwing it on a railcar, understanding that there 
are other ways to move it that, you know, there may be 
tradeoffs in time or other certain aspects of it, but in the 
end, it can have significant impacts in terms of the 
environment, in terms of savings due to road wear and 
everything else.
    Mr. Maloney. What are the Europeans doing that we are not?
    Admiral Buzby. Sorry?
    Mr. Maloney. What are the Europeans doing that we are not?
    Admiral Buzby. Well, you know, they have not benefited from 
the road network and the rail network that we have. We have 
been very blessed in this country in that we have such an 
extensive road network that has enabled trucking really to take 
the place of what rivers do in Europe. We kind of got spoiled 
in that respect. You think back, our river system, our coastal 
system, that is how America moved goods in the beginning. 
Before we had roads, before we had railroads, that is how it 
all happened. We moved away from that because we got so darn 
good with our rail system and our road system, both of which 
are becoming overtaxed now.
    So our waterways are our one artery where we still have a 
lot of capacity to grow into, and if we double our cargo, as we 
say we think we are going to do over the next 30 years, we 
won't have any choice; we will have to go into the waterways.
    Mr. Maloney. Mr. Gibbs?
    Mr. Gibbs. Thank you.
    Thank you, Admiral, for being here.
    Some of the options, I know the shipping community has 
suggested that the harbor maintenance fee, Harbor Maintenance 
Trust Fund, the law--any cargo that is imported from Canada or 
between U.S. ports, there is the ad valorem tax for the Harbor 
Maintenance Trust Fund. Do you know how much is raised annually 
as a result between the domestic shipments?
    Admiral Buzby. I don't have the number right at the tip of 
my tongue, but, you know, that is an issue, is when you are 
doing that sort of domestic shipping, you end up paying twice.
    Mr. Gibbs. Do you think it is enough that it is a 
disincentive to increase short sea shipping?
    Admiral Buzby. It certainly is a factor. Like every form of 
transportation has cost factors that have to be factored in, 
this is one that has to be factored in.
    Mr. Gibbs. I just raised this because some in the shipping 
community are raising it--and at least from the Canadian and 
domestic ports to ports.
    Admiral Buzby. Right.
    Mr. Gibbs. You know, we maybe talked about this in the 
questions from the chairman, but is there anything the Federal 
Government could do to really try to jump start the short sea 
shipping?
    You talked a little bit about infrastructure. I guess I am 
just trying to think--this is really a private sector thing and 
there are challenges, there are obstacles for one to do that. 
Some of that is getting financing, building new ships, just 
reluctance from shippers because there is competition between 
other modes of transportation.
    Do you see anything specifically that the Federal 
Government should be doing to maybe help give confidence to the 
shippers to want to increase their assets or capabilities?
    Admiral Buzby. I think this program is a great impetus to 
try and do that because it is not just the fact that we are 
designating projects and providing grants for those designated 
projects, which is an incentive, but I think the education 
piece, as I mentioned before, is really important. It is just 
not well-known, it is just not well-appreciated, I think, by 
most shippers and many carriers, that this alternate means 
exists and it can be beneficial to their business.
    At the end of the day, it comes down to a business case, 
people moving goods around. The business case has to be there 
in order to do that. The reliability has to be there, costwise 
it has to work, schedulewise it has to work. In some areas, 
marine highways work like a champ where we have seven very 
good, strong programs that are out there working where all of 
those pieces fit in, but, you know--so that is discovery. 
People figured that out, so more of that discovery has to 
occur, so----
    Mr. Gibbs. I think most of shipping and short seas maritime 
is really bulk commodities, for lack of a better word, maybe 
not so much the containers.
    Admiral Buzby. Right. And this program is specific. It 
doesn't address bulk, because bulk is moving pretty well. This 
program was developed to address containers and later on break 
bulk----
    Mr. Gibbs. What was that last part?
    Admiral Buzby. Break bulk, palletized goods. Which, you 
know, in some areas--I think if you look at New York, if you 
look at the New York area itself, a lot of the users of goods 
in New York City or the area don't need a 20-foot TEU worth of 
stuff; they need a pallet. So to the extent that you can use 
the harbor to move things around instead of on a truck, in a 
small vessel or something, move a pallet size and then move it 
through the streets, I think there is potential there that 
could be exploited. And I know there are entrepreneurs out 
there that are looking at that kind of a thing. You know, it is 
people thinking beyond the normal, we are stuck with this size, 
this is all we got.
    Mr. Gibbs. I guess if they could think outside the box and 
satisfy what the markets demanding are asking, and I think you 
just gave an example of that.
    Admiral Buzby. Yeah. There are other projects around that, 
I think, have great promise. They just need to kind of be fully 
baked. They are conceptual in many cases. They just have to 
work through that business case and then they will be ready to 
go.
    Mr. Gibbs. Thank you. I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Admiral Buzby, thank you for being here. Thank you for your 
testimony.
    You mentioned the link between short sea shipping--it is 
very hard to say quickly--and the Jones Act. Obviously, the 
Jones Act is always the subject of debate. What do you think 
the biggest misconception out there about the Jones Act is? If 
you could sort of talk to the American people about why the 
Jones Act is important and correct sort of some of the 
misconceptions, what is at the top of that list?
    Admiral Buzby. Well, these days, it is getting to be that 
the Jones Act is the root of all evil, everything that is wrong 
is the fault of the Jones Act, and that everything that costs 
more is a result of the Jones Act, and that is just not borne 
out in the facts. When you look at the detriment that would be 
caused to this Nation by the Jones Act going away, in terms of 
impact of shipbuilding and ship repair, or the 40,000 vessels 
that are Jones Act vessels that all get built and repaired in 
U.S. shipyards, to the number of people that are employed, the 
American mariners that are employed that, oh, by the way, on 
some of the larger Jones Act ships I depend upon to help crew 
up our sealift vessels, they would go away. To just the people 
that are pushing, you know, transiting our waterways, American 
citizens that are a de facto layer of security for our Nation. 
They are out there every day. They know what normal looks like. 
If they see something wrong, they are going to say something is 
wrong. I don't think we can believe that would ever happen with 
a foreigner pushing goods up and down our internal waterways, 
and why would we want to turn our internal commerce over to a 
foreigner to control. It blows my mind. So, I think for all of 
those reasons, it is absolutely critical.
    Mr. Gallagher. I appreciate that. And you mentioned in your 
testimony that we have congestion on our roadways and, 
therefore, we have an advantage when it comes to maximizing our 
maritime shipping lanes. Can you also speak about the 
importance of icebreaking for keeping maritime shipping lanes 
open and our current icebreaking capacity on the Great Lakes?
    Admiral Buzby. Obviously, icebreaking falls into the 
purview of the Coast Guard, and as we heard the Commandant last 
time he and I were here speak, he believes he has a plan, for 
the Great Lakes at least anyway, and he needs obviously some 
help in the high latitudes with our new Polar Security Cutters. 
But clearly, especially on those cold winters, icebreaking 
capacity on the upper reaches of the rivers and the Great Lakes 
toward the end of the seasons is really vital to ensuring that 
flow of goods and that flow of commerce. On those years where 
we have heavy freeze and heavy icing on the upper Mississippi, 
it wreaks havoc, and even up on the upper Hudson, we have heavy 
ice years, it wreaks havoc. So I know the Coast Guard has a lot 
of inland cutters, 140 footers that they task pretty heavily, 
but they all are a vital part of the entire marine highway 
system, absolutely.
    Mr. Gallagher. Thank you. I yield the balance of my time.
    Mr. Maloney. I thank the gentleman.
    Mrs. Miller.
    Mrs. Miller. Thank you, Chairman Maloney. And thank you, 
Admiral, for being here today.
    Short sea shipping, especially along our Nation's rivers, 
is vitally important in my district in West Virginia. The 
Huntington Tri-State Port is one of the largest inland water 
ports. It was the largest till Cincinnati got dredged, if I 
remember correctly, but it ships over 80 million tons of cargo 
every year. That is 80 million tons of natural resources 
reaching domestic and foreign markets creating jobs and driving 
our economy. Our waterways are essential for efficiently 
shipping our products and staying competitive in the global 
market.
    This is a little bit like Congressman Gibbs's question, but 
what steps can Congress take to promote maritime careers for 
hardworking Americans?
    Admiral Buzby. Thank you for the question, and it is a 
great one because it really speaks to the workforce issue, 
which is a big focus of mine. And traditionally, MARAD has 
really focused at the State maritime academies and Kings Point, 
our Federal maritime academy. We are increasingly looking lower 
now. We are looking deeper into our educational system down to 
the high school level. Maritime-focused high schools at 
community colleges, we are getting ready to fire off the 
Centers of Excellence for Domestic Maritime Workforce Training 
and Education. I will be coming out with the advertisement for 
that for comment here very shortly, but we really see that as 
the generator of maritime workforce, especially for the inland 
sector, Jones Act sector, becoming so much more important in 
the future.
    As we see growth on our maritime highways, we need to kind 
of get ahead of that, if you will, I think, through increased 
focus at our high school level, and I have asked all of my 
State maritime academy presidents to reach out in their regions 
to start interfacing with those folks to start getting it known 
that maritime education, maritime careers, both ashore and 
afloat, are really going to be vital to our Nation and they are 
good-paying jobs. You will be able to raise a family on them.
    Mrs. Miller. I am glad to hear you say that because there 
is much more focus on career in technical happening now, and so 
I think that would be wonderful.
    What are the biggest regulatory burdens or unfair taxes 
imposed on maritime shipping industry that keep it from 
competing with trucking and rail?
    Admiral Buzby. Well, we talked about the Harbor Maintenance 
Tax and the fact that that is kind of a double jeopardy thing. 
That has to probably ultimately be addressed at some point. I 
am not sure how that is going to go, but that has been raised 
repeatedly as an issue. We hear it from industry. It has been 
made to work in some places, but depending on the market, 
depending on the commodity, depending on the circumstances, it 
can be more of a challenge to keep those programs moving 
forward. I think that is probably the biggest thing.
    Mrs. Miller. The maritime highway system includes the 
section of the Ohio River that connects my district to the rest 
of the country. How has the program expanded since its 
enactment, and how can Congress continue to help the Maritime 
Administration promote maritime highways?
    Admiral Buzby. We have designated 25 marine highway routes, 
and that really covers most of the navigable waterways. We may 
have a couple yet to go, but I think we have pretty much--I 
think we have one that is under consideration actually right 
now by the Secretary, but we have done a pretty good job, I 
think, of covering the navigable waters. But, you know, there 
may be others, and we will certainly look for nominations of 
those designations, because that is the basis of the program.
    You have to have a highway in order to support the project. 
So once the highway is there, the project can then go forward, 
and that project designation then enables it to be considered 
for grant funding based on the merits of the program and I 
think that will continue to grow. I mean, every year, we see 
more programs being requested for designation, and we are able 
to then consider more for grants and that is, you know, we can 
spread the funding that we get a little bit broader every year 
with the broader grants, with the broader programs.
    Mrs. Miller. OK. Thank you.
    Are the Navy and the Coast Guard continuing to find more 
effective ways to see that their ship drivers are eligible to 
receive merchant mariner credentials after they leave the 
Service?
    Admiral Buzby. Of course, we have the Military to Mariner 
program, which we continue to push forward on. Of course, the 
President passed the Executive order a couple of months back 
that helped that process along. I know I can speak for the 
Navy, my old Service, they have done a lot of effort to try and 
start cataloging the sea time and the actual coursework that is 
done during the course of an officer's career in order to make 
that transition, if they so choose to do it, much easier than 
it was even a couple years ago.
    So to answer your question, yes, we are moving well in that 
direction. We will get some people to transition over. 
Unfortunately, most of the people that leave the Navy do so 
because they don't like the family separation, and coming into 
this line of work, you get a little bit more of that. But we do 
get naval officers and Coast Guard officers and Army officers, 
for that matter, that enjoy coming over in the merchant marine.
    Mrs. Miller. OK. Thank you. I yield back my time.
    Mr. Maloney. I thank the lady.
    Mr. Garamendi.
    Mr. Garamendi. First, let me compliment you, Mr. Chairman 
Maloney, for holding this hearing. It is a very, very important 
step along the way to maintaining and enhancing our maritime 
industry.
    Admiral, I missed your opening statement. I have been 
busily trying to catch up in reading it, but I do want to thank 
you for your attention to the issues of maritime. The work that 
you did with us on the NDAA and the issues there moves it 
forward, and hopefully, we will be able to expand the maritime 
support for our military.
    Investing in our Nation's inland and coastal waterways will 
always reduce roadway congestion and fatalities. Short sea 
shipping can be competitive, but it needs help.
    There are many different pieces to this, Army Corps of 
Engineers dredging programs, or not, docks and the like that 
are not exactly or even closely designed for the kind of 
infrastructure necessary for short sea, which is a whole lot 
different than across the ocean ships and the infrastructure 
needed for that. It is interesting that the dredging issue in 
my district becomes very important, and it is not just for 
freight, but also for moving people.
    The ferry system in the San Francisco Bay area sometimes 
doesn't work because the ferries can't even get to the dock, 
and so that brings us to the Army Corps of Engineers and their 
budget and the allocation of their funds. Also, I noticed the 
exchange between Interstate 80 and 680 in my district, 
Fairfield area, is probably going to be a multibillion-dollar 
interchange when it is finished. I guess I am pleased that we 
provided some $7 million for short sea shipping, which is some 
small, small fraction of the billions that will be spent on one 
interchange, largely because of the truck traffic coming out of 
this San Francisco Bay area.
    In any case, just a couple of questions. How do we make 
better use of the taxes that are presently collected, and is it 
necessary for us to find a way of avoiding the double taxation 
that will occur in short sea shipping?
    Would you go into that in a little detail?
    Admiral Buzby. To the extent I can, yes, sir. As we have 
sort of discussed here earlier, that has long been an issue in 
short sea shipping, and that is the double jeopardy for Harbor 
Maintenance Tax, that it gets tagged twice.
    Mr. Garamendi. This is something that comes to us, and your 
earlier testimony, once again, I apologize for missing, should 
be the foundation for an amendment to our current tax law so 
that we don't double tax so that we eliminate this financial 
disincentive. Also, I am going to bring your attention, which I 
suspect you know, there is a very strong incentive to use the 
Port of Vancouver rather than the ports in Seattle because of 
that very same tax. So when that train arrives in the Midwest 
from Vancouver, maybe that tax ought to apply when it crosses 
the border. I don't think the MCA took that up, but it is an 
issue that harms the industry on the west coast.
    What is it going to take here? Is it going to take direct 
subsidies to the shippers? Does it take better infrastructure? 
Where would you suspect we spend the next $7 million or $20 
million or $21 million?
    Admiral Buzby. In terms of marine highways specifically?
    Mr. Garamendi. Yes.
    Admiral Buzby. Well, I am always siding on the 
entrepreneurial sort of spirit in this country. Just about all 
of these projects, you know, that are up and running now, seven 
that are running and the many, many--25 that are approved and 
probably another 30 that are in the queue, are all somebody's 
brain child. They all looked at a situation and said, that 
makes more sense to move it by water. And now figuring out the 
business case to make that happen, you know, it takes a while 
to do it. It doesn't work in every case, but we have good 
examples where it makes great sense. Some places should not 
probably ship by water. It just doesn't work, but I think 
increasingly as we see the costs mounting and the----
    Mr. Garamendi. Is it possible for the construction of the 
vessels themselves? We have had programs in the past that 
supported the construction of vessels. Is that a good place to 
invest?
    Admiral Buzby. Yeah. You know, building Jones Act vessels 
of the size that we are talking about here, tugs and barges for 
the most part, you know, that is not really an issue. The rest 
of the world doesn't build tugs and barges as well as we do for 
the cost that we do. We are very competitive. Our shipbuilding 
industry is very competitive in tugs and barges, so having to 
provide a lot of--building subsidies, I don't know that that is 
specifically the answer. Certainly, in the international side--
--
    Mr. Garamendi. Just a couple of--one final point. 
Rebuilding our maritime industry requires specific legislative 
support for the industry. Next week, we will be introducing the 
Energizing American Shipbuilding Act. We appreciate your 
support for that and the Members, many of the folks that are 
here on the dais, for their support, and folks in the audience. 
That will provide at least many of the jobs and much of the 
industrial construction of the ships, so we will be working on 
that and maybe fit into this. Thank you very much for your 
testimony.
    Mr. Chairman, I yield back.
    Mr. Maloney. I thank the gentleman.
    And seeing no further Member questions, I know we have kept 
you longer than anticipated already, Admiral Buzby. We do have 
your written testimony for the record. We appreciate very much 
those submissions as we lay the necessary predicate for some of 
the good work we want to do as a committee in this area. Work 
that, without today's hearing, would not be possible under the 
new House rules, so we appreciate very much your participation. 
It does help us in our work.
    I would like to move to the second panel, if that is 
possible, and thank you very much, Admiral.
    Admiral Buzby. Thank you very much.
    Mr. Maloney. Thank you.
    Mr. Maloney. While our witnesses are taking the table, I 
will go ahead and begin to introduce them.
    We are lucky to be joined today by Mr. Jonathan Nass, chief 
executive officer of the Maine Port Authority; Mr. James 
Weakley, president of the Lake Carriers' Association; and Mr. 
Larry Willis, president of the Transportation Trades 
Department, AFL-CIO.
    Thank you all for being here today. We look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record, as the previous panel. Since we have 
your written testimony and it has been made part of the record, 
the subcommittee requests that you limit your oral testimony to 
5 minutes.
    Mr. Nass, you may proceed.

TESTIMONY OF JONATHAN NASS, CHIEF EXECUTIVE OFFICER, MAINE PORT 
      AUTHORITY; JAMES WEAKLEY, PRESIDENT, LAKE CARRIERS' 
  ASSOCIATION; AND LARRY I. WILLIS, PRESIDENT, TRANSPORTATION 
                   TRADES DEPARTMENT, AFL-CIO

    Mr. Nass. Thank you, Mr. Chairman.
    Mr. Maloney. If I could just recommend to the witnesses, 
you can pull that box as close to you as needed. It does move. 
And if you speak into the microphone, it helps our stenographer 
and the folks watching it on TV. Thanks.
    Mr. Nass. Chairman Maloney, Ranking Member Gibbs, and 
members of the Subcommittee on Coast Guard and Maritime 
Transportation, my name is Jonathan Nass, and I am the chief 
executive officer of the Maine Port Authority. Thank you for 
inviting me to speak today on the exciting topic of short sea 
shipping.
    The Maine Port Authority is a quasi-governmental entity 
tasked with improving Maine's economy by developing and 
promoting infrastructure that moves freight domestically and 
internationally.
    Maine has a long history of living from and by the sea. If 
you drive Route 1 along Maine's coast, you will encounter 
mansions sea captains built over several hundred years in 
virtually every town you cross through. These once grand houses 
are monuments of the prosperity once enjoyed from a thriving 
coastal freight transportation network. Unfortunately, today, 
many are in disrepair and suggest a time past and many lost 
opportunities over the last 50 years.
    The Maine Port Authority and many others are currently 
working to revitalize that maritime shipping heritage. We 
recently developed a brownfield in the City of Portland into 
the international marine terminal, a container terminal that in 
just 5 years has gone from a derelict abandoned eyesore to a 
vibrant international, logistical, multimodal hub connecting 
Maine to the world. We are very proud to note that we have had 
annual growth and volume of over 20 to 30 percent every year.
    I believe that we can build on that success by connecting 
northern New England domestically to ports to our south through 
establishing water service paralleling the congested I-95 
highway system on the east coast.
    For those of us that live in port cities, moving freight by 
water is instinct, but it needs to become intuitive for others 
as well, especially those who set transportation policy. One 
only needs to sit for a few frustrating hours in Boston or 
beltway traffic to appreciate the value of alternative 
transportation of freight. Moving freight from highway to 
seaway will improve commerce, decrease air pollution, and 
reduce fuel consumption and traffic congestion in our largest 
cities.
    I am certainly not the first to suggest that the United 
States has an infrastructure problem. There is no denying it. 
In maritime terms, the Nation's surface transportation 
infrastructure is like a vessel taking on water, fast.
    Fortunately, fixing our transportation network is not a 
political issue. Democrats and Republicans all agree it is 
broken. Rather, it is a policy issue. How will we as a Nation 
fix it? How can we help you as Congress to address it?
    The first step in saving a sinking ship is to plug the 
leaks. The infrastructure policy debate usually centers around 
one question: Where will the funding come from to rebuild 
America's highways?
    But there is more to the transportation equation than 
highways. As with any fixed asset, there is also a matter of 
depreciation and use. If we can reduce the cost of the highway 
system, reduce the rate of appreciation, and reduce the rate of 
growth of trucks on our highways, then we are starting to plug 
the leaks.
    By not making an alternative freight transportation system 
a national priority, especially short sea shipping 
alternatives, I believe that we are misusing our surface 
transportation network. We are missing a win-win opportunity to 
both stop the leaks in the highway infrastructure while 
fostering a revitalized waterway economy nationally.
    What if we can establish a well-utilized marine highway as 
functional as roads and bridges but without the cost of 
pavement and steel, without potholes, without traffic jams? A 
system where at least some long-haul freight bypasses the 
heavily congested urban areas.
    That is exactly what the Maritime Administration's marine 
highway is designed to do, and it should be a top priority when 
fixing the entire system.
    Since the Eisenhower administration, the United States has 
focused on a network of expensive fixed transportation assets. 
The problem is that with constant patching, lost time, money, 
road rage, accidents, but we have ignored a great opportunity.
    In 2010, Secretary Ray LaHood designated the New England 
marine highway system as part of the national marine highway 
system. Part of that project was the designing of an 
articulated barge that is Jones Act-compliant yet is 40 percent 
CapEx and 40 percent OpEx of a comparable marine vessel.
    We have also become a member of the North Atlantic Marine 
Highway Alliance. This effort funded by the Maritime 
Administration and managed by the New York City Economic 
Development Corporation includes parties from the Chesapeake to 
Maine.
    Mr. Chairman, we recently hosted a meeting that brought 
freight owners together with port owners and shippers in Maine, 
and I would be happy to answer questions on that interesting 
discussion. Thank you, sir.
    [Mr. Nass's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Jonathan Nass, Chief Executive Officer, Maine 
                             Port Authority
    Chairman Maloney, Ranking Member Gibbs, and members of the 
Transportation and Infrastructure Subcommittee on Coast Guard and 
Maritime Transportation, my name is Jonathan Nass and I am the Chief 
Executive Officer of the Maine Port Authority.
    Thank you for inviting me to speak today on the exciting topic of 
Short Sea Shipping.
    The Maine Port Authority (the MPA) is a quasi-governmental entity 
tasked with improving Maine's economy by developing and promoting 
infrastructure that moves freight both domestically and 
internationally.
    Maine has a long history of living from and by the sea. If you 
drive Route One along Maine's coast you will encounter the mansions sea 
captains built over several hundred years in virtually every town. 
These once grand houses are monuments of the prosperity once enjoyed 
from thriving coastal freight transportation networks. Unfortunately, 
today, many are in disrepair and suggest a time past and many lost 
opportunities in the last 50 years.
    The MPA and many others are currently working to revitalize that 
maritime shipping heritage. We recently developed a brownfield in the 
City of Portland into the International Marine Terminal, a container 
terminal that in five years has gone from a derelict abandoned eyesore 
to a vibrant international, logistical, multimodal hub connecting Maine 
to the world with annual growth in volume of 20 to 30 percent.
    I believe we can build on that success by connecting Northern New 
England domestically to ports to our south by establishing water 
service paralleling the congested I-95 highway system on the East 
Coast.
    For those of us who live in port cities, moving freight by water is 
instinct, but it needs to be intuitive for others as well--especially 
those who set transportation policy. One needs only to sit for a few 
frustrating hours in Boston or Beltway traffic to appreciate the value 
of alternative transportation. Moving freight from highway to seaway 
will improve commerce, decrease air pollution, and reduce fuel 
consumption, and traffic congestion in our largest cities.
    I am not the first to suggest that the United States has an 
infrastructure problem. There is no denying it. In maritime terms, the 
nation's surface transportation infrastructure is like a vessel taking 
on water. Fast.
    Fortunately, fixing our transportation network is not a political 
issue. Democrats and Republicans all agree--it is broken. Rather, it is 
a policy issue. How will we as a nation will fix it? How can we help 
you, as a Congress to address it?
    The first step to saving a leaking ship is to plug the leaks.
    The infrastructure policy debate usually centers around one 
question--Where will the funding come from to rebuild America's 
highways?
    But there is more to the transportation equation than highways. As 
with any fixed asset, there is also the matter of depreciation and use. 
If we can reduce the cost of the highway system, reduce the rate of 
depreciation, and reduce the rate of growth of trucks on our highways 
then we are starting to plug the leaks.
    By not making alternative freight transportation systems a national 
priority, especially short sea shipping alternatives, I believe that we 
are misusing our surface transportation system. We are missing a win-
win opportunity to both stop the leaks in the highway infrastructure 
while fostering a revitalized water-way economy nationally.
    What if we can establish a well-utilized marine highway as 
functional as roads and bridges but without the cost of pavement and 
steel? Without potholes and traffic jams? A system where at least some 
long-haul freight by-passes heavily congested urban area?
    That's exactly what the Maritime Administration's Marine Highway 
program is designed to do and it should be a top priority when fixing 
the entire system.
    Since the Eisenhower Administration, the United States has focused 
on a network of expensive fixed transportation assets--superhighways, 
bridges and interchanges, with efforts of constant widening, continuous 
patching, lost time and money, road rage, and accidents.
    What we as a nation have largely ignored is the natural highway 
system that is part of the inherent American geographical make up--our 
nation's waterways and coastal routes.
    In 2010, then USDOT Secretary Lahood designated the New England 
Marine Highway project as part of the National Marine Highway System. 
That project funded the design of an articulated barge, in partnership 
between the MPA and McCallister Tug, to operate a service between 
Northern New England and New York/New Jersey.
    Last year, the MPA became a member of the North Atlantic Marine 
Highway Alliance. This effort is funded by the Maritime Administration 
and managed by the New York City Economic Development Corporation and 
the Port Authority of New York New Jersey. Its members include 
interested parties from the Chesapeake to Maine.
    We recently hosted a meeting in Portland, Maine that brought 
interested parties--ports, shippers, barge service operators, the 
Maritime Administration--to Maine to meet beneficial cargo owners to 
discuss short sea shipping options.
    The Alliance recognizes that freight owners are critical to the 
success of a reinvigorated short sea shipping network. To convince 
beneficial cargo owners to make a modal shift of a portion of their 
supply chain--the new alternative must be cost-competitive and it must 
be consistent and reliable.
    To make this happen, there must be a shift in government policy to 
make short sea shipping a priority. Perhaps not on the scale of the 
creation of the interstate highway system, but that type of vision is 
not a bad place to start. Let's apply the same vision, imagination, and 
policy that brought us the interstate highway system to short sea 
shipping.
    Mr. Chairman, Transportation matters. Transportation policy 
matters. A national policy, like that managed by the Maritime 
Administration, to foster and encourage domestic water-borne freight 
will make domestic businesses more competitive, create jobs on working 
waterfronts, promote cleaner air, less congested and less damaged 
roads, and could rebuild America's maritime industries.
    Thank you for this opportunity to testify. I look forward to your 
questions.

    Mr. Maloney. I appreciate that, Mr. Nass. Thank you very 
much.
    Mr. Weakley, you may proceed.
    Mr. Weakley. Thank you.
    I represent 13 American companies operating 46 U.S.-flag 
vessels on the Great Lakes. We carry the raw materials that 
drive the Nation's economy: iron ore and limestone for steel, 
aggregate and cement for construction, coal for power 
generation, and more. Those cargoes generate 103,000 jobs with 
an economic impact of over $20 billion.
    I will discuss the benefits of marine transportation, the 
Great Lakes navigation system, our role, the importance of the 
Jones Act, and maritime infrastructure.
    As this graphic demonstrates, it takes less energy to move 
cargo via water. We move a ton of cargo 607 miles from Duluth 
to Detroit with 1 gallon of fuel. A truck moves that ton 59 
miles per gallon, and rail 202 miles.
    Vessels also emit fewer tons of carbon dioxide per ton-
mile. Economies of scale help lower energy consumption. One of 
our lakers can move 70,000 tons of cargo, which is the 
equivalent of 700 railcars or 3,000 trucks. If trucks operated 
with vessels' efficiency, they could be powered with a lawn 
mower engine.
    Prior to the development of the Interstate Highway System, 
raw materials, lumber, people, vehicles, and finished goods 
also moved on lakers. The higher value, time-sensitive cargoes 
now move by faster modes, so low-value, heavy cargoes are our 
focus. Self-unloading vessels can unload in hours what once 
took weeks. This technology and larger vessels combine to make 
the lakes the world's most efficient system for shipping dry 
bulk cargo.
    In fresh water, vessels last decades longer. We maintain 
our vessels rather than replace them. Last winter, we invested 
$70 million in maintenance. New construction and conversions 
are also part of our investment plan. Interlake Steamship 
recently announced the construction of a new laker. VanEnkvort 
Tug and Barge announced the construction of a new laker-sized 
barge, and Port City Marine Services completed the conversion 
of a cement barge.
    The Merchant Marine Act of 1920, the Jones Act, requires 
that vessels moving cargo between U.S. ports be American owned, 
American built, and American crewed. This bedrock of maritime 
policy provides the stability necessary to invest in the fleet. 
The national, economic, and homeland security benefits, and the 
regulatory certainty it provides allows long-term contracts. 
The Jones Act encourages Americans to invest huge sums of money 
in assets that will last decades.
    It takes more than vessels. The Corps of Engineers will 
soon begin construction on a new Soo lock to add system 
resiliency. No longer will 11 million Americans be dependent on 
a single point of failure in northern Michigan.
    Maintenance of channel depths is also critical. I applaud 
the Transportation and Infrastructure Committee's efforts to 
fully spend the Harbor Maintenance Trust Fund. Through your 
efforts, we have made great strides.
    We also need adequate and reliable Coast Guard icebreakers 
on the Great Lakes, but we appear to be losing ground on that 
front. Because we carry low-value cargo, we operate on thin 
margins. We are sensitive to the cost of regulations. Even 
high-value cargo is sensitive to additional shipping costs such 
as the Harbor Maintenance Tax being applied a second time to 
containerized imports that move domestically by ship.
    Cargo is king and the transportation industry evolves to 
serve its needs. We exploit the laws of physics that make 
shipping the most efficient, environmentally friendly, and 
socially responsible mode of transportation. We changed the 
size of our vessels and invented self-unloading technology.
    In order to grow the domestic maritime industry, we need: 
regulatory stability--support the Jones Act, and consider the 
cost of regulations; infrastructure--dredging, breakwalls, 
locks, and icebreakers; and we need system resiliency--a new 
lock in Sault Ste. Marie, Michigan.
    Moving low-value, heavy commodities is what we do best. We 
can and want to do more.
    Thank you.
    [Mr. Weakley's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of James Weakley, President, Lake Carriers' 
                              Association
    Good morning. Thank you for the opportunity to speak to you today. 
I am Jim Weakley, President of the Lake Carriers' Association (LCA). We 
represent 13 American companies that operate 46 U.S.-flag vessels on 
the Great Lakes and carry the raw materials that drive the nation's 
economy: iron ore and flux stone for the steel industry, aggregate and 
cement for the construction industry, coal for power generation, as 
well as sand and grain. Collectively, our members can transport more 
than 100 million tons of dry-bulk cargo per year and employ more than 
1,600 men and women, all of whom are U.S. citizens or legally admitted 
aliens, and provide annual wages and benefits of approximately $125 
million. In turn, the cargos our members carry generate and sustain 
more than 103,000 jobs in the eight Great Lakes states and have an 
annual economic impact of more than $20 billion.
    I would like to provide a brief overview of the Great Lakes 
Navigation System (GLNS), its different market segments, how we engage 
in short sea shipping and are investing in our fleet. Then, I'll focus 
the majority of my testimony on the economic and environmental benefits 
of marine transportation. I'll touch on the challenges we face, the 
importance of the Jones Act and government's role in maritime 
infrastructure.
                                the glns
    The Great Lakes Navigation System (GLNS) enables maritime commerce 
on America's Fourth Sea Coast. The five Great Lakes are tied together 
by three connecting channels (the St. Marys River, the Detroit/St. 
Clair River system and Welland Canal) and the so-called ``Achilles Heel 
of North American Manufacturing,'' the USACE navigation locks at Sault 
Ste. Marie, Michigan (Soo). The St. Lawrence Seaway is the umbilical 
cord that connects the GLNS and its 68 U.S. ports and 35 Canadian ports 
to global trade. The Great Lakes are a bi-national system supporting 
both domestic and international trade. For example, in the Detroit/St. 
Clair River portion of the system alone the navigation channel crosses 
the U.S./Canadian border 17 times. If measured as a single region, the 
eight Great Lakes States and two Canadian Provinces represent the 
world's third largest economy.
    Although there is a great desire to move international container 
traffic through the GLNS, the majority of the cargo moved today is 
bulk. The international ocean-going fleet, vessels, sometimes referred 
to as ``salties,'' primarily bring steel into the Great Lakes region 
and take grain out. Approximately 225 salties call annually on both 
sides of the border moving 10 million tons of cargo annually.
    U.S.-flag ``lakers,'' the vessels LCA represents, are ships and 
barges specifically designed for the Great Lakes trade. Most are self-
unloading dry-cargo vessels, although some lack the self-unloading 
equipment, and others move liquid bulk material. Both the United States 
and Canada reserve their domestic waterborne movements of cargo for 
``coastwise qualified'' vessels. Our nation's Jones Act vessels are 
American-owned, American-built and American-crewed. In 2018, U.S.-flag 
lakers transported approximately 84 million tons of iron ore, coal, 
limestone, cement, salt, sand, and grain in domestic moves (between two 
U.S. points) under the Jones Act, and they carried 2 million tons of 
cargo between U.S. and Canadian ports. In 2014 (the last year they 
published cargo data) Canadian-flag lakers transported 69 million tons 
of cargo. About half of that total moved domestically (between two 
points in Canada), including Canadian points on the Great Lakes ports, 
the Canadian Arctic or its East Coast, and about half between U.S. 
Great Lakes ports and Canadian ports.
                 glns and soo lock economic importance
    LCA members are the linchpin of what has been called ``one of the 
nation's most economically vital systems, the iron mining--integrated 
steel production--manufacturing supply chain . . . '' \1\ In general, 
iron ore, the primary raw material for steel, is transported by our 
ships from mines in Minnesota and the Upper Peninsula of Michigan to 
steel mills in Indiana, Ohio, Michigan and Pennsylvania. So crucial is 
that waterborne supply chain that the Department of Homeland Security 
(DHS) has warned that an interruption of domestic shipping services 
through the Poe Lock would have ``catastrophic impacts on the regional 
and National economy,'' \2\ including the interruption of steel 
production and the plunging of the North American economy into a 
``severe recession.'' \3\
---------------------------------------------------------------------------
    \1\ ``The Perils of Efficiency: An Analysis of an Unexpected 
Closure of the Poe Lock and its Impact,'' Department of Homeland 
Security, (October, 2015), at 1. While this report is focused on the 
impact of a failure of the Poe Lock, through which vessels that are 
part of this supply chain must pass, the analysis also demonstrates the 
significant impact of shipping on the Great Lakes economy and beyond.
    \2\ Id. at 29.
    \3\ Id. at iii.
---------------------------------------------------------------------------
    The DHS study estimated that 11 million Americans would become 
unemployed if shipping through the Poe Lock was interrupted for a 6-
month period beginning at the start of the shipping season. According 
to DHS, the State of Michigan's unemployment would reach 22%, exceeding 
its peak unemployment rate of 15% during the Great Recession of 2008. 
This is a direct result of interrupting the manufacturing made possible 
by the 60 million tons of key raw materials transiting the Poe Lock on 
an annual basis.
    However, this is a national problem. In fact, the unemployment 
spikes in the event of an interruption in Great Lakes shipping will 
ripple through the United States, a result of the far-reaching impacts 
of the automobile manufacturing and general steel industries. Three 
States, Michigan (944,000), Texas (865,000) and Ohio (826,000) would 
experience job losses in excess of 800,000 people. The DHS study also 
determined that nearly 100% of North American appliance, auto, 
construction equipment, farm equipment, mining equipment, and railcar 
manufacturing would cease. The $1.1 trillion decrease in gross domestic 
product would result in widespread bankruptcies and a likely recession. 
DHS concluded that, ``In terms of an impact to the North American 
economy, it is hard to conceive of a single asset more consequential 
than the Poe Lock.'' \4\ Without our vessels to move the raw materials 
via the GLNS, this North American manufacturing would not be possible.
---------------------------------------------------------------------------
    \4\ Id. at 55.
---------------------------------------------------------------------------
                              this hearing
    This hearing examines domestic movements of cargo via marine 
transportation, also known as ``short sea shipping.'' By understanding 
the dynamics and market forces that make the Great Lakes Navigation 
System (GLNS) successful, we may be able to expand it to other markets. 
Recognizing the challenges we face can lead to good investment 
decisions by government and business.
      economic and environmental benefits of marine transportation
Comparing Energy Consumption and Air Emissions:
    It takes less energy to move cargo via water than it does the other 
modes of transportation. A U.S.-flag laker can move a ton of cargo 607 
miles, the approximate distance from Duluth to Detroit, while consuming 
only one gallon of fuel. A truck can typically move that same ton of 
cargo about 59 miles per gallon and rail can move it 202 miles per 
gallon. Given the lower energy consumption, marine transportation emits 
fewer tons of carbon dioxide. A laker will emit 19 tons to transport 
1,000 tons of cargo 1,000 miles. Trucks making the same cargo movement 
will emit 190 tons. Attachment 1 provides a modal comparison of fuel 
consumption and carbon dioxide emissions.
    Economies of scale also help us achieve lower energy consumption 
rates. One of our lakers can move 70,000 tons of cargo. That is the 
equivalent of 700 rail cars or 3,000 trucks. Another measure of modal 
efficiency is horsepower per ton. Trucks require 12-20 horsepower for 
each ton of cargo moved. For rail it is about 1 to 1 and for vessels, 
it is 0.2-0.3. If trucks could operate with vessel efficiency, they 
could be powered with a lawnmower engine.
Evolution of the GLNS
    Lakers have always moved raw materials. However, there was a time, 
prior to the development of the interstate highway system, that lumber, 
people, vehicles and other finished goods moved via lakers. Those 
higher value and time sensitive cargoes are less suited to domestic 
maritime movements than they were 100 years ago because other faster 
modes of transportation have evolved to serve those markets. Low value, 
heavy cargoes are now our focus. Our self-unloading vessels use a 
series of conveyor belts running from under the cargo holds to the 
unloading boom. They can place cargo within 250 feet of the vessel on 
the dock at a rate of up to 10,000 tons per hour. We can unload in 
hours what it took days or weeks to do. The combination of self-
unloading technology and larger vessels have combined to make the GLNS 
the most efficient system in the world for handling dry-bulk cargo.
Investing In Our Fleet
    Given the fresh water environment of the Great Lakes, our vessels 
can last decades longer than oceangoing vessels. That means we maintain 
our vessels rather than replace them. During the winter Soo Lock 
closure from January 15th until March 25, our owners will do engine 
overhauls, steel replacement, drydock vessels, and upgrade systems. 
Last winter, LCA members invested $70 million to maintain their fleet. 
That is not unusual. In years when a vessel is repowered, that number 
can be significantly higher.
    New construction and conversions are also part of our member's 
investment plans. Interlake Steamship recently announced the 
construction of a new river class laker. VanEnkvort Tug and Barge 
announced the construction of a laker sized barge. Port City Marine 
Services recently completed a 21-month conversion of a bulk cargo barge 
to a cement carrying barge.
Jones Act Remains Critical
    The Merchant Marine Act of 1920, also known as the Jones Act, 
requires that vessels moving cargo between U.S. ports be American 
owned, American built and American crewed. This bedrock of maritime 
policy provides the stability necessary for LCA's members to invest in 
maintaining and adding to their fleet. The national, economic and 
homeland security implications of the law and the regulatory certainty 
it provides, allows us to enter into long-term contracts. The Jones Act 
encourages Americans to invest huge sums of money in assets that will 
last decades.
Maritime Infrastructure Investments
    It takes more than vessels to keep the GLNS operating reliability 
and efficiently. I've already mentioned the importance of the Soo 
Locks. We are pleased that the U.S. Army Corps of Engineers will soon 
begin construction on a second Poe-sized lock. More important than the 
efficiency gains it will provide is the system resiliency. No longer 
will we be dependent on a single point of failure. The maintenance of 
channel depths and harbor breakwalls is also critical to the GLNS. I 
applaud the Transportation and Infrastructure Committee's efforts to 
fully spend the Harbor Maintenance Trust Fund. Through your efforts, we 
have made great strides. On the Great Lakes we also need adequate and 
reliable U.S. Coast Guard icebreakers, but we appear to be losing 
ground on that front.
Maritime Regulation
    Because U.S. lakers carry low-value cargo and our vessel operators 
must make large annual investments just to maintain their current 
fleet, we operate on thin margins. This makes U.S.-flag laker operators 
sensitive to the cost impacts of regulations. While U.S. federal 
agencies typically attempt to ensure that these cost impacts on U.S. 
lakers do not eliminate our economic viability when considering new 
regulations that directly impact us, this is not the case with Canada.
    Transport Canada recently proposed new ballast water regulations 
that would force U.S.-flag laker operators to either spend hundreds of 
millions of dollars to comply or give up our portion of the U.S.-Canada 
maritime trade. The Canadian government knows that their proposed 
regulations would likely force our vessels out of that trade, leaving 
Canadian vessels as the only option for U.S. exporters to ship 
commodities by water to Canada. Although this cargo is a small portion 
of our overall business, its loss would reduce U.S.-flag laker 
operators' revenue and our ability to reinvest in our short sea 
shipping assets.
                               conclusion
    The Lake Carriers' Association was formed in 1880. Our members were 
and continue to be engaged in short sea shipping. Our business has 
evolved to meet the needs of our customers. As we often say in the 
transportation world, cargo is king and the transportation industry 
evolves to serve its needs. We have changed the size of our vessels and 
invented self-unloading technology. We have exploited the laws of 
physics that make the marine mode of transportation the most efficient, 
environmentally friendly and socially responsible mode of 
transportation. In order to grow the domestic maritime industry, we 
need:

        Regulatory stability--support the Jones Act and carefully 
        consider the cost impacts of new regulations
        Infrastructure investment--dredging, breakwalls, locks, and 
        icebreakers
        System resiliency--a new Poe-sized lock at Sault Ste. Marie, MI

    Moving low value, heavy, raw material is what we do best. We have 
been doing it for over 100 years and I believe will do it for the next 
100. We can do more and we will. All it takes is sufficient cargo over 
enough time to justify the investment.
    Thank you for your interest and for the opportunity to provide my 
perspective. I will answer any questions you may have about these 
concerns.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Maloney. Thank you, Mr. Weakley.
    Mr. Willis.
    Mr. Willis. Good afternoon, Chairman Maloney, Ranking 
Member Gibbs. On behalf of the Transportation Trades Department 
of the AFL-CIO and our affiliated unions, I want to thank you 
for inviting us to testify this morning, and appreciate the 
interest of the subcommittee in finding new and innovative ways 
to grow our U.S. maritime industry.
    You know, since the Nation's beginnings, waterborne freight 
transportation has been key to moving goods in this country. 
The mariners, the shipbuilders, the dredgers, the longshore 
workers represented by TTD's unions, we are on the front lines 
of this industry and we are fully supportive of the swift 
deployment of short sea shipping.
    Better utilizing our marine highways, we can reduce 
congestion and delays at our major port, which in turn reduces 
the strain on the entire freight network.
    Short sea shipping is also green shipping. It offers a 
viable freight alternative on vessels that are highly fuel 
efficient with lower emissions, and this impact is further 
magnified by cutting idling times and fuel consumption from 
trucks that service our U.S. seaports.
    And as noted, it is a particularly effective method of 
transporting goods that can be challenging to move via other 
modes of transportation, including oversized and overweight 
cargoes.
    But today's hearing, it asks a bigger and, I think, an 
important question of how best to rebuild this industry. And we 
are here to say that we think utilizing our marine highway is 
part of that puzzle.
    The U.S. maritime sector, this committee knows this, has 
long suffered due to unfair competition from unscrupulous 
foreign-flagged shippers. These companies, they have no 
interest in the fair treatment of workers or safe working 
conditions, let alone employing Americans. But because most 
short sea shipping would take place between U.S. destinations 
on vessels that are U.S. flagged by law, it would guarantee 
thousands of good-paying jobs in this country. Jobs, quite 
frankly, that cannot come quickly enough.
    In times of humanitarian crisis and war, the Department of 
Defense calls into service commercial mariners and their 
vessels. Today, the existing pool is inadequate to meet DoD's 
sealift needs. The jobs created by short sea shipping, they can 
close this gap, creating both economic and national security 
benefits with a single stroke.
    Furthermore, short sea shipping would breathe new life into 
America's shipbuilding industry. Once a point of pride in this 
country, too many American shipyards struggle to compete with 
Chinese and Korea shipyards that are heavily and unfairly state 
subsidized. If we cannot change course on this, we run the real 
risk of losing our ability to build commercial vehicles in this 
country and that should be unacceptable.
    A steady demand for Jones Act ships would put this industry 
and the jobs it is able to support on stable footing. And as 
short sea shipping generates business for ports of all sizes, 
it will create jobs on the longshore side, unloading and 
loading new water-bound cargoes.
    And I would be remiss if I did not point out that the jobs 
created in these industries are good jobs, the kind that people 
can raise families on. Why? Because workers in maritime and 
related sectors enjoy the benefits of strong union contracts.
    The policy and commercial benefits of the marine highway 
system, they are clear to us, and I think you have consensus on 
that from this panel, but despite this, we have failed as a 
Nation to unlock the potential.
    We offer several ideas for Congress to consider, not an 
all-inclusive list, but we should examine existing programs 
like those meant to assist domestic shipbuilding to determine 
if they can be modified or applied to support short sea 
shipping.
    Grants, Federal grants, designed to facilitate marine 
highway services should be significantly increased. The initial 
cost of acquiring equipment and infrastructure improvements 
necessary for short sea shipping can be significant, and 
Federal dollars, we think, are necessary to reduce this market 
barrier to entry.
    But the biggest hindrance to the use of short sea shipping 
is the double tax imposed under the Harbor Maintenance Trust 
Fund. By taxing shippers twice, once when their goods reach a 
port of entry and again when these same exact goods arrive at a 
secondary port, this law arbitrarily deincentivized shippers 
from choosing short sea shipping as a viable method to move 
their products.
    We support legislation that will end this double tax and 
pave the way for the marine highway to become an integral part 
of our freight network. We stand ready to work with this 
committee on this policy and others that strengthen the U.S. 
maritime industry, create new jobs, and promise all the 
economic benefits that short sea shipping we know has to offer.
    Thank you.
    [Mr. Willis's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Larry I. Willis, President, Transportation Trades 
                          Department, AFL-CIO
    On behalf of the Transportation Trades Department of the AFL-CIO 
and our affiliated unions, I want to first thank Chairman Maloney and 
Ranking Member Gibbs for inviting me to testify before you today.\1\ We 
deeply appreciate the Subcommittee's interest in taking a fresh look at 
ways to promote the domestic maritime industry.
---------------------------------------------------------------------------
    \1\ Attached is a complete list of TTD's 33 affiliate unions.
---------------------------------------------------------------------------
    It is time to have serious conversations in this country about our 
national freight network and the ever-increasing demand put on it. In 
2015, across all modes of transportation, the U.S. moved 18.1 billion 
tons of goods worth about $19.2 trillion. By 2045, the Department of 
Transportation estimates that we will move 25 billion tons of freight 
annually. Our existing network is strained as is, and the costs 
associated with delays and congestion associated with adding even more 
freight are substantial. It is imperative that we consider how our 
transportation network can develop and adapt to the needs of our 
economy. We cannot let economic growth, good jobs and prosperity pass 
us by because we lack the capability and capacity to take advantage.
    Since the nation's beginnings, waterborne freight transportation 
has been an integral component of how we move goods domestically. As we 
continue to address our needs, maritime shipping must be a linchpin of 
any national freight strategy. The maritime industry and the workers we 
represent look forward to continuing to rise to the challenge.
    For this reason, we are pleased the Subcommittee is focused on 
unlocking the benefits of short sea shipping. A fully developed short 
sea shipping sector would provide shippers an additional and viable 
option as they determine how to best direct cargo to its final 
destination. In most instances, goods arrive at large hub ports like 
L.A./Long Beach and New York/New Jersey aboard massive Panamax and 
Post-Panamax vessels and are then transferred to surface transportation 
shipping options. A short sea shipping model would allow these goods 
travel down the coasts or through inland waterways to their ultimate 
destinations or to less congested smaller ports and harbors.
    As Congress, the GAO and the Maritime Administration have noted on 
many occasions, the potential benefits of this model are significant. 
As cargo volumes at major ports continue to rise, congestion at these 
facilities presents an increasingly difficult and costly problem. A 
recent Wall Street Joumal story described a trucking company who, due 
to bottlenecks at the Port of Virginia, can move half as much goods per 
day as it could last year. We've also heard from our members of two, 
four, and even ten hour tum times at crowed ports. Moving cargo along 
the coast or inland waterways to smaller facilities can significantly 
reduce congestion at larger ports, decreasing the amount of time cargo 
spends sitting on the dock or in warehouses, and cutting delays for 
existing freight services.
    Short sea shipping is also green shipping. When transporting 
substantial volumes, utilizing these vessels is highly fuel efficient 
per cargo ton-mile, and can result in substantially reduced emissions. 
The environmental benefits of short sea shipping also go well beyond 
the fuel efficiency of any particular vessel. Delays at ports and on 
the surface freight network more broadly can result in unnecessary 
truck idling and wasted fuel. The utilization of short sea shipping can 
have a multiplier effect, functioning as a green option individually 
while simultaneously increasing efficiency in other freight modes.
    It also makes sense from a commercial perspective. There are 
innumerable uses of a short sea shipping network, but moving certain 
cargoes such as heavy, oversized, lower-value, and non-time-sensitive 
goods can be extremely cost effective. These cargoes can present 
challenges when shipped over surface modes, but are easily moved on 
short sea container vessels or barges. Hazardous materials shippers 
could also take advantage of the network when surface permitting 
requirements prove too costly.
    Today's hearing asks the bigger question of how to best rebuild our 
maritime industry. We are here because we think short sea shipping is 
part of that puzzle. The U.S. maritime sector has long suffered due to 
unfair competition with unscrupulous foreign-flagged shippers. These 
companies evade responsibility by registering in countries with no 
labor or environmental protections, pay their mariners poorly, and are 
known to simply abandon injured or sick mariners in foreign ports with 
no way back home. We have watched as huge swaths of the industry have 
abandoned the U.S. to operate under foreign flags. However, as most 
short sea shipping would take place between U.S. destinations on 
vessels that are U.S. flagged by law, it would guarantee thousands of 
good paying mariner jobs in this country, an excellent step in the 
right direction.
    These jobs cannot come quickly enough. Due to partnerships like the 
Maritime Security Program, many domestic U.S. mariners wear two hats. 
They work aboard commercial vessels in the course of their normal 
duties, but they can be called upon to provide sea-lift capacity to the 
U.S. military in times of war or humanitarian crisis. This additional 
capacity is of critical importance to national defense, and is 
something the country simply cannot do without.
    As Admiral Buzby highlighted earlier this year, we are 1,800 
civilian mariners short of the Department of Defense's needs. As we 
like to say in the maritime industry, cargo is king. If there is cargo, 
we will train the mariners and build the vessels needed to carry it. By 
increasing the availability of cargo moved through a strong short sea 
shipping network, we have the opportunity to create thousands of good 
seafaring jobs and address pressing national security needs with a 
single stroke. For these reasons alone, we should take every action to 
promote short sea services.
    Short sea shipping also holds promise for the American shipbuilding 
industry. Increases in shipping between domestic ports means increased 
demand for U.S.-built Jones Act-compliant ships. American shipbuilding 
companies do not manufacture the types of small to medium-sized 
container vessels that would be most valuable in coastal short sea 
shipping. Why? Because the domestic demand for these vessels does not 
currently exist--a demand that short sea shipping creates. Increased 
demands could also result in orders for new barges to replace many of 
the 28,000 aging Jones Act barges currently in service.
    These orders could alleviate difficult circumstances for the 
shipbuilding industry, which employs over 100,000 workers across the 
country. Many shipyards are struggling to find the reliable orders 
necessary to keep the lights on, in no small part due to the 
impossibility of trying to compete with foreign shipyards in China and 
Korea that are deeply state-subsidized. The further decline of U.S. 
shipbuilding would be deeply damaging to the the U.S. economy and our 
U.S.-flagged commercial fleet.
    If the shipbuilding industry is allowed to erode further, this 
decline will be difficult to reverse. Skilled tradesmen will move to 
other sectors, and expensive facilities will be permanently shuttered 
or repurposed. We will be faced with a scenario in which we cannot 
produce vessels in either the short or the long term for the first time 
in our history. This is unacceptable. Creating a steady demand for U.S. 
built vessels engaged in trade along our coasts will provide a badly 
needed boost to the industry.
    Increased maritime traffic from short sea shipping would also 
create new longshore jobs. Jobs would be created at hub ports where 
longshoremen move goods to smaller vessels and also at the smaller 
ports and harbors which currently receive less traffic. These 
facilities would be obligated to hire more workers to handle the 
increase in cargo volumes that short sea shipping would bring.
    The benefits of short sea shipping are clear but existing services 
are minimal. It is incumbent on us to bridge this divide First, all 
stakeholders must increase the visibility and explain the viability of 
short sea shipping. Shippers' familiarity with the service and 
understanding of its merits is a large hurdle to overcome. Companies 
simply will not order what they do not know is on the menu of freight 
options.
    Additionally, MARAD must devote its resources towards both 
promoting short sea shipping and determining what administrative, 
regulatory, or statutory changes are necessary to achieve the level of 
service MARAD has previously called for. We also recommend that 
Congress specifically examine how existing shipbuilding programs like 
the Federal Ship Financing Program (Title XI), Capital Construction 
Fund and Construction Reserve Fund could be deployed in the effort to 
encourage the growth of short sea shipping, and if changes to those 
programs or new programs entirely may be effectual.
    Finally, and perhaps most importantly, Congress must take immediate 
action to end the Harbor Maintenance Trust Fund's ``double tax''. 
Currently, the statute imposes a tax on vessel bound imports when those 
goods reach their first destination. If those goods are then moved by 
rail or truck, this is the full extent to which shippers pay into the 
HMTF. However, if goods are moved onto smaller ships or barges, the tax 
will be imposed again on arrival at a secondary port or harbor. By 
applying the tax multiple times, current law arbitrarily 
disincentivizes short sea shipping, as shippers have no interest in 
being taxed twice on the same goods.
    TTD has previously supported legislation that would enact this 
overdue fix. We look forward to supporting future legislative efforts 
in this regard, which will be required if any progress is to be made to 
make short sea shipping a reality.
    We stand ready to work with this committee on policies that 
strengthen the U.S maritime industry, create new jobs and promote short 
sea shipping. Thank you for the opportunity to testify.

                           TTD MEMBER UNIONS

<bullet>  Air Line Pilots Association (ALPA)
<bullet>  Amalgamated Transit Union (ATU)
<bullet>  American Federation of Government Employees (AFGE)
<bullet>  American Federation of State, County and Municipal Employees 
(AFSCME)
<bullet>  American Federation of Teachers (AFT)
<bullet>  Association of Flight Attendants-CWA (AFA-CWA)
<bullet>  American Train Dispatchers Association (ATDA)
<bullet>  Brotherhood of Railroad Signalmen (BRS)
<bullet>  Communications Workers of America (CWA)
<bullet>  International Association of Fire Fighters (IAFF)
<bullet>  International Association of Machinists and Aerospace Workers 
(IAM)
<bullet>  International Brotherhood of Boilermakers, Iron Ship 
Builders, Blacksmiths, Forgers and Helpers (IBB)
<bullet>  International Brotherhood of Electrical Workers (IBEW)
<bullet>  International Longshoremen's Association (ILA)
<bullet>  International Organization of Masters, Mates & Pilots, ILA 
(MM&P)
<bullet>  International Union of Operating Engineers (IUOE)
<bullet>  Laborers' International Union of North America (LIUNA)
<bullet>  Marine Engineers' Beneficial Association (MEBA)
<bullet>  National Air Traffic Controllers Association (NATCA)
<bullet>  National Association of Letter Carriers (NALC)
<bullet>  National Conference of Firemen and Oilers, SEIU (NCFO, SEIU)
<bullet>  National Federation of Public and Private Employees (NFOPAPE)
<bullet>  Office and Professional Employees International Union (OPEIU)
<bullet>  Professional Aviation Safety Specialists (PASS)
<bullet>  Sailors' Union of the Pacific (SUP)
<bullet>  Sheet Metal, Air, Rail and Transportation Workers (SMART)
<bullet>  SMART-Transportation Division
<bullet>  Transportation Communications Union/IAM (TCU)
<bullet>  Transport Workers Union of America (TWU)
<bullet>  UNITE HERE!
<bullet>  United Automobile, Aerospace and Agricultural Implement 
Workers of America (UAW)
<bullet>  United Mine Workers of America (UMWA)
<bullet>  United Steel, Paper and Forestry, Rubber, Manufacturing, 
Energy, Allied Industrial and Service Workers International Union (USW)

 These 33 labor organizations are members of and represented by the TTD

    Mr. Maloney. Thank you, sir. And I am very interested in 
the point you ended on, and I would like to get the perspective 
of other witnesses as well, about the Harbor Maintenance Tax. 
For the people who don't understand, I think you laid it out 
pretty well.
    You know, there is a double tax applied to any cargo 
transshipped to another U.S. port, whether it is domestic or 
international in its original origin. How burdensome is the 
second application of that Harbor Maintenance Tax to develop 
short sea shipping? Mr. Nass, Mr. Weakley, Mr. Willis, if you 
want to expand on that. It is a big issue for many of us on the 
committee.
    Mr. Nass. So when we met a couple weeks ago with some 
beneficial cargo owners and port owners and shippers up and 
down the east coast, the biggest part of the discussion was you 
have to be competitive. A business is not going to move to a 
mode of transportation that is more expensive than less 
expensive. It is that simple.
    So I believe any way that you can make waterborne 
transportation more cost effective, more competitive, is going 
to help get this program going. And I think, really, what we 
need to do as a Nation is recognize the benefits of moving 
heavy cargo off the road.
    The numbers I have heard, 44 cents, 46 cents, damage to a 
roadway from a heavy box. I see a win-win here, you know. Let's 
spend 10 cents on getting that box onto the water. And 
certainly, the Harbor Maintenance Tax, the notion of even--it 
sounds like a small amount for your average person, right, .125 
in an industry, though, where margins are razor thin and any 
cost that you add to any of it just makes it that much less 
competitive.
    Mr. Maloney. Appreciate that.
    Mr. Weakley, I don't know if we can get your slide back up. 
I thought it was actually pretty compelling, and it doesn't 
even include the point Mr. Nass just made about the external 
cost of maintaining those roadways, right? That is not included 
in your number?
    Mr. Weakley. Correct, sir, that does not include that 
external cost of the Harbor Maintenance Trust Fund. I concur 
with everything Mr. Nass said, as well as Mr. Willis. If I may 
pick up on a point Congressman Garamendi mentioned, it is not 
only a disincentive to get around the west coast ports, it is a 
disincentive for containers to come into the Great Lakes. They 
are offloaded in Montreal and Quebec, they are put on a rail, 
and they are railed into Detroit, Chicago. I see them crossing 
the bridges all the time.
    In the Port of Cleveland, they have come up with an 
innovative approach to subsidize direct containerships on a 
more liner basis to Europe. I think they have since stopped 
subsidizing that. It still survives. However, the exact problem 
we are talking about prevents Cleveland from being a feeder 
port, a hub and spoke to Europe because of that second domestic 
move. So it is a challenge for us on the lakes too, sir.
    Mr. Maloney. Thank you.
    With that, I will yield to the gentleman from Ohio, Mr. 
Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    I do want to welcome Mr. Weakley, because he is a 
constituent. It is always nice to have a constituent here.
    Mr. Weakley, you talk about the Soo locks project in your 
testimony, and I have always been a strong advocate since my 
tenure here that that should be of national significant 
importance. I think during World War II we had a brigade up 
there guarding it; they were so worried about it.
    Can you tell us where we are in the process of getting that 
redone?
    Mr. Weakley. So, Congressman, again, I appreciate all your 
support over the years, particularly your support through this 
subcommittee.
    Great news on the Soo locks. They have developed a positive 
benefit to cost ratio. The Army Corps, to its credit, and to 
OMB to its credit, recognized that this lock is of critical 
significance well beyond the benefit to cost ratio.
    As you mentioned, there were 10,000 troops up there. In 
fiscal year 2019, we got $32.3 million out of the work plan. 
The President's budget proposed $75.3 million. I think it 
should be--I think it just passed. Was that one of the things 
you were just voting on on the omnibus? So we are hoping that 
will go forward. The project is well underway, and the State of 
Michigan kicked in $52 million towards that project.
    So I am not an optimist by nature, sir, but I am convinced 
this project is going to go forward.
    Mr. Gibbs. Well, I think I'll just reminiscence here a 
little bit. When I was chairman of the Water Resources and 
Environment Subcommittee, Secretary Darcy at the time, we were 
talking about the cost-benefit analysis. And I said to her, I 
think we can do this here in 15 minutes. Me and you can get it 
done. So I am glad to see it is finally moving, because it 
seemed like to me it was a no-brainer.
    Mr. Weakley. Thank you, sir. I should also thank this 
committee for reauthorizing it in the WRDA 2018. So thank you 
for that, sir.
    Mr. Gibbs. Go back to the Harbor Maintenance Trust Fund 
fee, the .125 percent. It doesn't sound like a lot of money, 
but I want to--you know, it is interesting. All three of you in 
the testimony now, because if you have $1 million worth of 
cargo, that is 1,250 bucks. You get charged once. You get 
charged twice. So, you know, 2,500 bucks. It doesn't sound like 
a whole lot of money for a big ship if it is $1 million of 
cargo, but your competition doesn't have that, is what you are 
saying.
    And then you also got the challenge you are limited to 
where you can move because of where the water is, and I am glad 
to hear you say about how much improvement has been made in the 
infrastructure and unloading and loading, because when that 
vessel is sitting there, that is time. That is money, right?
    And I know when I was over at the Shanghai port in China, I 
unbelievably heard of when they told us how fast they were 
turning those ships around. It was sometimes in less than 24 
hours, or 36 hours, I guess, depending on the tide. So that is 
amazing, all those containers. And I know in Cleveland we have 
had the discussion that you are trying to do that with the 
containers.
    So I guess the point I am just trying to make, emphasize, 
it doesn't sound like a lot of money, but when you have got the 
competition with rail and truck and their ability to move that 
cargo from point A to point B, the faster route, to the end 
customer, that is what really factors in and makes it a 
negative for you. Is that correct, right?
    Mr. Weakley. Yes, sir. I would agree. Also, time value of 
money, our ships are moving slower through the water than they 
are over the road. So we have to make that up by handling point 
and by economies of scales.
    I will defer to Mr. Nass.
    Mr. Nass. Absolutely. Efficiency at the dock is the name of 
the game. That ship is only making money when it is moving.
    Mr. Gibbs. The thought that came to my head here, going 
back 10 years or so, how much change in efficiency at the docks 
would you estimate we have picked up?
    Mr. Nass. Well, sir, in our instance, we didn't exist 10 
years ago.
    Mr. Gibbs. Oh, OK.
    Mr. Nass. So, my timeframe is 5 years.
    Mr. Gibbs. OK.
    Mr. Nass. And we were the recipient of a FASTLANE grant 
that brought in some new machinery. And we really struggled at 
about 10 moves an hour when we first started 5 years ago. With 
a new vessel, with a new crane, with a great labor force that 
is getting better and better every day, we are up to 23 moves 
an hour. That makes a big difference. It means the ship is 
leaving in a day and not----
    Mr. Gibbs. It doubles efficiency. That is good.
    Mr. Nass. Yes, sir.
    Mr. Gibbs. Mr. Weakley, just quickly, you talked about the 
ice cutters on the Great Lakes. Do you want to just point about 
the important--I am meeting with the Commandant tomorrow night. 
I thought maybe it might be good to get some more information 
on that.
    Mr. Weakley. Well, sir, with the chairman's permission, I 
will provide some more detailed information for the record. But 
I can tell you, in the winter of 2013-2014, we left 6.8 million 
tons on the dock because of inadequate ice-breaking. That cost 
the U.S. economy 3,800 jobs and $705 million in lost economic 
activity because of inadequate ice-breaking. The winter of 
2014-2015, similar numbers, 3.2 million tons, 2,000 jobs, $355 
million in lost economic activity.
    The reliability is abysmal. This year, four of their nine 
icebreakers were out of commission. Last winter, five of their 
nine icebreakers simultaneously inoperable.
    Mr. Gibbs. OK. That is good to know.
    Thank you. I yield back.
    Mr. Maloney. I thank the gentleman.
    One bit of housekeeping. Without objection, I would ask 
unanimous consent to also include a statement by Mr. Percy Pyne 
of Green Shipping Line into the record.
    [The information follows:]

                                 <F-dash>
 Letter of June 19, 2019, from Percy R. Pyne, Chairman and CEO, Green 
        Shipping Line, Submitted for the Record by Hon. Maloney
                                                     June 19, 2019.
United States House Transportation and Infrastructure Committee, Coast 
        Guard and Maritime Transportation Subcommittee

Hearing on ``Short Sea Shipping: Rebuilding America's Maritime 
Industry''

    Honored Members:
    Thank you for this opportunity to offer my thoughts to your 
Committee.
    I am the Chairman and CEO of Green Shipping Line. Our goal is to 
invigorate the nation's most underutilized mode of transportation and 
help rebuild America's maritime industry. We intend to build modern, 
fuel-efficient Jones Act compliant feeder ships for short sea shipping 
on the American Marine Highways and for the installation and 
maintenance of wind farms along the coast.
    While all other modes of transportation are at or exceeding their 
capacity, short sea shipping offers a solution to help ease our 
congested highways, ports, airports and railways. When implemented, 
short sea shipping will add reliable waterborne options for shippers 
seeking resiliency and redundancy to their supply chain management.
    The United States is a nation that was built on its water systems 
which dictated its patterns of development. Using our waterways was the 
preferred choice for transportation and trade until the mid-1960s. 
Historically, we were the number one ship building nation in the world 
until the mid-1980s and we produced more than 5,000 marine assets of 
all kinds in 3 years during WWII.
    Today, our nation faces a significant and growing infrastructure 
and distribution crisis. That being the reality, we at Green Shipping 
Line have looked to our past to find 21st century solutions for our 
21st century problem. Our strong belief is that short sea shipping is 
the answer and Jones Act commercial shipbuilding is critical to our 
national security and economic survival.
    In order to understand how commercial ship building is performed in 
other countries today, we travelled the world to view how other ship 
building nations including Korea, Germany and the Netherlands have 
adopted, integrated and co-opted our systems.
    Having discovered many new techniques, we have formed joint 
initiatives with German, Dutch and Norwegian companies to bring their 
knowledge to re-invigorate our small vessel commercial shipbuilding 
industry. Further, we have sought out and began a long running dialogue 
with our U.S. shipbuilding and maritime unions and the ILA to engage 
them in our initiative from the beginning. The Unions are critical to 
our effort as their members will ultimately build, man, and service our 
ships. We are working with states such as Maryland to create training 
programs and exclusively with ABS to ensure that our designs meet both 
IMO and USCG standards.
    One regional yard, Moran Iron Works, has been with us every step of 
the way on the journey so far. However, the journey is just beginning 
and we expect more will follow in the future.
    What could our government do to help?
    (1)  MARAD must promote the America's Marine Highway program (AMH) 
as defined in the 2007 National Security Law Section C to educate our 
citizens on the importance of: the unlimited capacity of the AMH that 
costs nothing to build and little to maintain, our significant existing 
port networks, green economical water transportation, and 
containerization.
    (2)  Offer Government support in the form of ``Completion 
Guarantees'' or ``Refund Guarantee'' schemes that helped the German KGs 
and Korean shipbuilders.
    In the rest of the world, rail, trucking and water transport all 
work together to move and distribute goods. (The proportions are 
roughly equal between the three.) Adding water to our transportation 
mix will not take away or diminish the need for rail or trucking, but 
rather compliments it.
    In conclusion, we believe that a vibrant short sea shipping 
network, that every other industrialized economy in the world relies on 
for transport and distribution of goods, is the only answer that will 
save our landside transportation networks and allow our economy and 
population to grow unabated. It's ironic that the United States, the 
country with the longest coastlines and most developed ports network in 
the world, is the only developed country without a short sea network.
    Thank you again for this opportunity to express our views.
        Yours sincerely,
                                           Percy R. Pyne IV
                              Chairman and CEO, Green Shipping Line

cc: Tom Moran, Moran Iron Works Founder and CEO
Peter Franchot, State of Maryland Comptroller
Tom Trotter, AFL-CIO Legislative Representative Government Affairs
Dennis Daggett, ILA Executive Vice President
Scott Cowan, ILA Vice President
Rich Krueger, ILA Vice President
Don Marcus, MM&P President
Thorsten Schutt, Kongstein Chairman of the Board
Peter Tamm, Tamm Media CEO
Suresh Pisini, ABS Structures Group
Lauren Brand, MARAD Associate Administrator for Intermodal System 
Development
Brian Davis, White Star International President
Colleen Robertson, Green Shipping Line Managing Director

    Mr. Maloney. Mr. Garamendi.
    Mr. Garamendi. Somebody mentioned icebreakers? I just wrote 
down the two numbers here, $705 million and $365 million. Is 
that correct?
    Mr. Weakley. $705 million and $355 million, sir.
    Mr. Garamendi. A super heavy icebreaker runs about $700 
million a copy, and that is not for the Great Lakes, that is 
for the Arctic. Just keep in mind the relative costs and the 
benefits associated with icebreakers. Thank you for mentioning 
it. This committee has been super on that issue.
    We have talked about the double taxation here, which seems 
to be maybe not the only issue but a significant issue. We need 
to get down to the numbers on the potential revenue that is 
lost currently and the economic activity that could be gained 
were there no double taxation. So if you gentlemen could help 
us with that analysis, it would be very useful.
    My sense of it is that there is not much tax loss now, 
should we eliminate the double taxation. But we are going to 
have to score that. And if there is a tax bill ever, then we 
would want to have this in it. So we would want to have that 
kind of detailed information, if you could develop that.
    Also, there is another way of going about it, and you 
mentioned Cleveland and that Cleveland essentially rebated that 
tax. Once again, numbers would be useful here. We have the 
annual appropriation of $7 million, $10 million, whatever, for 
the marine highway system, and just thinking of different ways 
we can get this job done. On the tax side, you can rebate. We 
could appropriate the money and then it gets rebated or we can 
eliminate the tax. So, once again, numbers would be very useful 
for that.
    Also, the efficiency of loading and unloading, which is 
said to be a problem. Appreciate your testimony on the 
efficiency that you have achieved in Maine. But this may be an 
infrastructure problem on the ports and the docks themselves. 
So I would like to get some detail on that. What are we talking 
about? There is one example in the written testimony here of a 
method that did that.
    So if you could just discuss those things, if you have the 
numbers, if you have what it takes to make the dock efficient 
for this purpose. Whichever one of you wants to jump in.
    Mr. Nass. Maybe I can touch on the infrastructure end of 
it. We have invested about $64 million into our relatively 
small terminal. Much of that revolves around being more 
efficient.
    For instance, our maintenance facility was on the pier when 
we started. The wrecking balls are coming today. We built a new 
maintenance facility out of the way, and the entire notion is 
to create that ship-to-shore space that just makes it more 
efficient to unload a vessel. Similarly, we have expanded our 
pier space and put new equipment on there, and it pays off.
    The ROI on this, you know, is a matter of years when the 
infrastructure lasts an awful long time. Our oldest crane is 
over 20 years old, and she is still working great. We think it 
is worth the investment.
    Mr. Garamendi. Is there a specialty issue here also, the 
kind of equipment that you need to take from, perhaps not in 
Maine, but any of the major docks and ports, east coast, west 
coast, coming off a big ship, putting it on a small vessel or a 
tug or--excuse me--a barge? Are we talking about different 
kinds of infrastructure that would be needed?
    Mr. Nass. I think the equipment we have at the 
International Marine Terminal in Portland is the same type of 
equipment you would use for barge operations, mobile harbor 
cranes, reach stackers, those types of items.
    Mr. Garamendi. Very good.
    One of the things we did a couple of years ago was to allow 
the Harbor Maintenance Fund to be used for on-the-dock 
improvements, which has really not been used very much.
    My final point would be a question for us to try to get 
into, and that is--and I did not ask this of Admiral Buzby. 
What are the specific projects that are lined up? What we have 
now created is what I call administrative earmarks. I want to 
know what his earmarks are. So if we can dig that out and see 
how they fit into the testimony and the priorities that you 
have mentioned.
    With that, I yield back.
    Mr. Maloney. I thank the gentleman.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    And I appreciate what I sense to be the bipartisan love of 
icebreakers on this committee. I would like to probe the depths 
of that a little bit more. And I want to thank all of our 
witnesses for being here, for being patient with our schedule.
    And thank you, Mr. Weakley, for your eloquent testimony to 
the importance of the Great Lakes. And I represent Green Bay, 
Wisconsin, and that is obviously critical to our economic 
success. The Port of Green Bay in particular is an essential 
part of maritime trade. We have over 166 vessel arrivals that 
generate $147 million in economic impact in the region. As you 
mention, we move everything from iron ore to Wisconsin soy. 
But, ultimately, that trade is dependent on shipping lanes on 
the Great Lakes being open, and in the wintertime, that means 
icebreakers. It gets cold in my neck of the woods, in case 
anyone was wondering.
    So the Coast Guard right now operates 12 icebreakers that 
are in high demand for one-quarter of the year, but only one of 
these, the Mackinaw, is of medium size and was intended to work 
in a pair, meaning that it must cut backwards on each shipping 
lane without a second Mackinaw.
    So last month, I questioned, and we had a great dialogue on 
this committee. I questioned Admiral Schultz from the Coast 
Guard on the need for a new icebreaker for the Great Lakes, and 
I know you have already talked about the economic impact, but 
in your testimony, you mentioned that we are losing ground. You 
sort of briefly mentioned that we are losing ground with 
respect to U.S. Coast Guard Great Lakes ice-breaking. And I 
just wanted to give you a chance to kind of explain and expound 
upon that comment.
    Mr. Weakley. So I will focus on two areas, the 140s and the 
need for the new Mac. So the 140s are going through their 
Service Life Extension Program, or their SLEP. The biggest 
problem with that SLEP program is they are not replacing the 
engines. Those engines are 30 to 40 years old. They are very 
expensive to maintain. They are very finicky. They could have 
put a brandnew tier 4 state-of-the-art, lower energy, lower 
pollution, more reliable engine with a reliable inventory of 
spare parts in the commercial industry; that would have 
streamlined it. In fact, the Morro Bay, one of the ships that 
was out for a month, was out of commission for a month, and it 
is a post-SLEP.
    A Biscayne Bay, 16 months out of commission because of an 
engine casualty. It took them 8 months to build the ship. It 
took them 16 months to fix an engine repair. As a former Coast 
Guard officer and a former engineer in the Coast Guard, I find 
that somewhat frustrating.
    The Mackinaw, as you mentioned, it is basically a single 
point of failure. If the Mighty Mac goes down, we are not going 
to open Sturgeon Bay. We are not going to open our shipyards to 
get them out of layup. We are not going to get them through 
Lake Superior. The original plan was to build two Mackinaws. 
They cut that. I think there is some suggestion of combining it 
with the polar program. The problem I see with that, sir, is 
that it would waste a $100 million, you know, to build a Polar-
class icebreaker for the Great Lakes. We need a second Mac 
size. We don't need a Polar. The ice conditions are different. 
They are different styles of ice, and it is a different 
operation. We need more maneuverability than they need in the 
Arctic.
    The old Mac was heavier, wider, did a better job to handle 
our thousand footers. The new Mac is more maneuverable, but it 
needed the second. The original plan, had they stuck with it, 
would have worked. Unfortunately, cost cutting has a cost to us 
and the economy.
    Mr. Gallagher. You mentioned the Mac as a single point of 
failure and that we would have to shut down Sturgeon Bay, et 
cetera. Is it even possible to quantify the economic impact in 
such a scenario?
    Mr. Weakley. Well, the best I could do is the 2014-2015 
numbers I would give you, but really, it would be catastrophic. 
There is no way to measure the cost of shutting down a steel 
mill. I think they estimated it would be $100 million, because 
if you do a cold shutdown that is not planned, you have to 
realign the steel mill. It would be catastrophic to the steel 
mills of Indiana.
    Mr. Gallagher. I appreciate that.
    Mr. Chairman, I yield back. And we have got to break the 
ice.
    Mr. Maloney. I thank the gentleman for that bipartisan note 
of consensus.
    I don't see any further questions of the committee. I know 
we have kept you gentlemen well past the time you probably 
expected. So in the interest of respecting everyone's schedule, 
I would like to thank all of you for your testimony. Your 
contribution to today's discussion has been very informative 
and helpful.
    I would ask unanimous consent that the record stays here 
and remain open until such time as our witnesses have provided 
the answers to any questions that may have been submitted to 
them in writing. I further ask unanimous consent that the 
record remain open for 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing. Without objection, so ordered.
    If no other Members have anything to add, with the thanks 
to our panelists, the committee stands adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              

   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Mr. Chairman. Earlier this year, the subcommittee held a 
hearing to assess the condition of the U.S. maritime industry and to 
begin an overdue discussion of what we can do in Congress to stimulate 
greater job creation and economic opportunity in this vital mode of 
transportation.
    This afternoon's hearing to examine short sea shipping, or, as the 
Obama administration tagged it, ``Marine Highways,'' is an excellent 
follow on topic.
    As noted by the Committee on the Marine Transportation System, 
waterborne cargo and associated activities contribute more than $649 
billion annually in personal wage and salary income and local 
consumption expenditures. Waterborne commerce also sustains an 
estimated 13.3 million direct and indirect port-related jobs, and 
contributes over $212 billion in annual port sector federal, state, and 
local taxes.
    Those are impressive numbers. If projections by the U.S. Department 
of Transportation's Bureau of Transportation Statistics hold, it is a 
safe bet that the total volume and value of marine commerce will 
continue to rise in the coming decade.
    Of course, ill-advised trade wars may alter those projections, but 
I prefer to remain optimistic.
    The bottom line is that we are going to have to move substantially 
more freight around the country. Short sea shipping--currently under-
utilized--offers the potential to move greater volumes of freight via 
the most efficient and cost-effective manner available, bar none.
    Moreover, short sea shipping offers other collateral benefits, such 
as increased transportation options for shippers and reduced congestion 
on crowded highways. In addition, lower vehicle emissions and better 
air quality in densely populated metropolitan areas, and increased 
employment in the longshore and domestic maritime industries, are both 
desirable outcomes that are good for our economy and our communities.
    Considering these attributes and the projections of rising freight 
volumes, it remains a puzzle as to why short sea shipping has not risen 
in prominence as a competitive transportation option.
    I expect this hearing to identify factors that have thus far 
stunted greater market interest in short sea shipping.
    Yet, I think it is also worth mentioning that we absolutely need to 
finalize a comprehensive, integrated national freight strategy.
    Progress in this endeavor was initiated after Congress passed the 
Moving Ahead for Progress in the 21st Century Act, or MAP-21, and was 
further advanced when Congress passed the Fixing America's Surface 
Transportation (FAST) Act, that directed the Department of 
Transportation to produce a National Freight Strategic Plan by 2017.
    Well, it is now 2019, and we only have a draft plan. We need to do 
better.
    In closing, until we think holistically and long-term about how we 
plan to move freight around the country, the U.S. freight 
transportation network will continue to be challenged by congestion, 
inefficiency, and yes, crumbling infrastructure. And until we accept 
that no one mode of transportation is the ultimate solution, 
alternatives such as short sea shipping will continue to be overlooked 
and under-utilized.
    Consequently, the only thing we may succeed in doing is to erode 
the global competitiveness of our own freight transportation network. 
We would all be best advised to avoid such an outcome. Thank you.
                                 <F-dash>
  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairman Maloney.
    As a farmer and Member whose district is bounded by both the 
Missouri and Mississippi Rivers, I understand the importance of 
shipping commodities by water in the United States.
    I look forward to learning more today about ways we can increase 
the use of America's waterways to ship more of our higher value 
cargoes.
    Moving cargo via Short Sea Shipping can alleviate congestion in 
other modes.
    Unfortunately, Short Sea Shipping requires the additional loading 
and unloading of vessels which creates expense and delays, as our 
waterways do not extend to everyone's final destination.
    In addition, shippers don't want to enter into contracts to move 
cargo on ships that aren't built yet, and bankers don't want to fund 
ship construction unless contracts are in place to move cargo on those 
vessels.
    Therefore, to encourage more Short Sea Shipping, Congress 
established a program in 2007, and I am particularly interested in 
hearing what actions the Maritime Administration has taken to implement 
it.
    I yield back the balance of my time.

                                 <F-dash>
  Statement of Kurt Nagle, President and CEO, American Association of 
       Port Authorities, Submitted for the Record by Hon. Maloney
    Chairman Maloney and Ranking Member Gibbs, thank you for allowing 
the American Association of Port Authorities (AAPA) to submit testimony 
following this timely hearing. AAPA looks forward to working with you 
both throughout the 116th Congress.
    AAPA strongly supports the Maritime Administration's (MARAD) Marine 
Highway Program and the potential it has in providing and incentivizing 
additional opportunities for shippers and ports. Specifically, a more 
robust and integrated marine highway system will provide more options 
to maritime customers, improve the environmental space connecting ports 
and communities by reducing truck traffic and emissions as well as 
managing the congestion around ports by providing sustainable waterway 
options to move freight. A strong Marine Highway Program is a much-
needed tool for ports, shippers and communities.
    Today's hearing is long overdue. The last time there was a hearing 
in this Committee on short sea shipping was 2007. Much has changed in 
the port and shipping industry these past twelve years--and much has 
changed with the advent of the FAST Act and the creation of dedicated 
freight programs at the U.S. Department of Transportation.
    The FAST Act provided a baseline for freight programs and the 
coming reauthorization of the FAST Act provides an opportunity for a 
program such as the Marine Highway Program to become more integrated 
into our supply chain by incentivizing its use. Additionally, 38 of the 
50 states and Washington, D.C., are connected by navigable waterways 
and marine highway routes. As the Marine Highway Program grows and 
becomes a viable option for communities, shippers and port authorities, 
AAPA believes that encouraging more of an emphasis on marine highways 
in the next generation of state freight plans will be key to further 
integrating the program as a tool in our country's transportation 
supply chain.
    AAPA has recommended updating the America's Marine Highway Program 
authorization and including it in the Maritime Freight Supply Chain 
title, as part of its FAST Act Reauthorization Platform. In the 
meantime, AAPA has three immediate recommendations to energize the 
program:
    1)  Step one--Wave the Harbor Maintenance Tax (HMT) tax when it is 
applied a second time in an instance of transshipped cargo. AAPA 
supports this exemption for certain U.S. port-to-port cargo. This is 
the issue that is most often raised as the biggest disincentive for 
shippers to utilize the marine highways.
    2)  Step two--Provide shippers with federal incentives or tax 
credits to utilize marine highways. Some states have put incentives in 
place, but a federal tax credit would send the message that marine 
highways are a national priority and that it is a long-term sustainable 
tool.
    3)  Step three--Build off the FAST Act Congestion Mitigation and 
Air Quality (CMAQ) language and direct and codify more CMAQ funding for 
marine highways with a focus on marine highway projects that have the 
long-term potential to reduce emissions and congestion; two key goals 
of the CMAQ program.
    Other long-standing AAPA recommendations include:
    <bullet>  Federal funding to support the return of transshipment 
cargo service to U.S. mainland ports,
    <bullet>  Federal funding support (operating and capital) for 
short-sea shipping services,
    <bullet>  Development of expertise at the state/MPO level on marine 
highway alternatives/benefits, and
    <bullet>  Reassessment of federal shipbuilding programs, exploring 
how they could support marine highway development.
    AAPA looks forward to working with you throughout the 116th 
Congress on these important maritime issues.
                                 
  ``America's Marine Highways,'' Fact Sheet, Maritime Administration, 
                Submitted for the Record by Hon. Maloney
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 
       ``America's Marine Highway Program,'' Brochure, Maritime 
        Administration, Submitted for the Record by Hon. Maloney
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                                Appendix

                              ----------                              


 Questions from Hon. Alan S. Lowenthal for Rear Admiral Mark H. Buzby, 
        U.S. Navy (Ret.), Administrator, Maritime Administration

    Question 1. As you've mentioned in your testimony, coastwise 
shipping holds tremendous promise to alleviate congestion on our 
highways and reduce harmful carbon emissions. In my region of Southern 
California, moving containers on barges can help us grapple with our 
world-famous traffic and allow our ports to handle more cargo without 
adding additional truck trips to our highways.
    As Vice Chair of the Sustainable Energy and Environment Coalition, 
I included investments in marine highways as part of our infrastructure 
proposal, because these investments drive substantial reduction in 
diesel emissions.
    I'm interested to know about some of the barriers to coastwise 
shipping in my region.
    I represent large container ports that have berths and terminals 
for ships that hold over 10,000 TEUs.
    Do container ports now have the infrastructure to allow for smaller 
container-on-barge operations?
    Answer. Adequate infrastructure that can best accommodate smaller 
container-on-barge operations at a container port should include a 
number of features including a dedicated barge berth adjacent to the 
large container berth, which is necessary to facilitate transloading of 
containers from the mother ship to a barge service. A dedicated berth 
allows for the barge service to maintain a service schedule, ensuring 
export loads do not miss the mother ship's scheduled departure. 
Appropriately sized cargo handling equipment will allow loading/
unloading of the barge which may include a negative drop top pick or 
mobile harbor crane vs. a large ship-to-shore crane.
    A separate terminal area near the barge berth will allow for 
aggregation of containers dedicated for the coastwise service. These 
containers may already be cleared by U.S. Customs and Border 
Protection, or may be domestic outbound moves, therefore a means to 
separate them from the general import stack is desired. Non-intrusive 
scanning of 100% of import containers is mandated. Most ports have such 
scanners located at the exit gates of the port facility. When moving 
containers between the mother ship and barge, a method of scanning 
containers without driving them out of the port gate is needed.
    For inland facilities, such as intermodal rail yards, enabling the 
transfer of heavy freight onto trains to keep trucks away from 
congested urban port areas is useful. To achieve this, high and wide 
clearance is necessary for intermodal corridors from ports to inland 
areas.
    MARAD does not systematically collect information from ports about 
the types of infrastructure they have or do not have to support smaller 
container-on-barge operations; however, it is ourexperience that few 
container ports have such facilities. To our knowledge, PNCT at Port 
Newark, Mobile and the Port of Virginia each have a dedicated barge 
berth adjacent to facilities that accommodate larger container vessels. 
Houston is exploring the viability of implementing a barge berth near 
their container facilities. Through work performed by the Marine 
Highway Program, new projects to develop such facilities may assist the 
following ports in the coming five years: New Orleans, other terminals 
in New York, Savannah, Oakland and ports in South Florida and Southern 
California.

    Question 2. What kind of investments will these ports need to make 
to establish smaller barge services to serve coastwise markets?
    Answer. The types of investments will vary by port, but in general 
the types of investments include expansions, including dedicated barge 
berth capacity, dedicated uplands storage facility separate from the 
general import stacks, and dedicated cargo handling equipment. Some 
ports may need to invest in training simulators for waterfront labor, 
such as to help with loading containers on a barge vs. loading large 
container vessels. Investments may also be needed on dock or near-dock 
rail access for ease of loading and discharging overweight cargo. 
Dredging new berths or rehabilitating berths to ensure access for both 
vessels and barges has also been a priority for large container ports.

    Questions from Hon. Alan S. Lowenthal for Jonathan Nass, Chief 
                Executive Officer, Maine Port Authority

    Question 1. As you've mentioned in your testimony, coastwise 
shipping holds tremendous promise to alleviate congestion on our 
highways and reduce harmful carbon emissions. In my region of Southern 
California, moving containers on barges can help us grapple with our 
world-famous traffic and allow our ports to handle more cargo without 
adding additional truck trips to our highways.
    As Vice Chair of the Sustainable Energy and Environment Coalition, 
I included investments in marine highways as part of our infrastructure 
proposal, because these investments drive substantial reduction in 
diesel emissions.
    I'm interested to know about some of the barriers to coastwise 
shipping in my region.
    I represent large container ports that have berths and terminals 
for ships that hold over 10,000 TEUs.
    Do container ports now have the infrastructure to allow for smaller 
container-on-barge operations?
    Answer. It depends. Large existing container ports have large 
berths where the larger container ships get priority. The availability 
of berth space for smaller barges would be based on schedule. This 
means that smaller feeder barges would have to fit their operations in 
edgewise to be serviced. More often than not we have found that the 
restricting factor is the cost-effective availability of labor to work 
the smaller barges.
    If a larger port is at 80% utilization of its existing terminal 
infrastructure then new additional port infrastructure should be 
considered. The amount of which should be based on the target amount of 
trucks we are seeking to move off the road and onto barges. This could 
be calculated.

    Question 2. What kind of investments will these ports need to make 
to establish smaller barge services to serve coastwise markets?
    Answer. If new port infrastructure is required the types of 
investments necessary to support smaller barge services would include: 
additional pier and terminal infrastructure in larger ports, rebuilt 
terminal infrastructure in smaller feeder ports, new mobile harbor 
cranes or gantry cranes, new reach stackers or straddle carriers to 
move containers around, new chassis (the wheels for the containers 
turning them into trucks), yard trucks, and potentially new barges/
tugs/or similar vessels. The majority of the above list should be 
considered as qualifying for public investment to incentivize modal 
shift in America. Port Infrastructure and all related equipment should 
be considered equivalent to the asphalt of roads and bridges. 
Financially it is a nominal amount of investment required for port 
equipment and infrastructure to carry the same amount as trucks or 
rail.
    All investment should be tied to market participation, private 
sector shippers (beneficial cargo owners AKA BCOs) committing freight 
for a lower freight rate and the benefit of lower emissions and lower 
social cost. This will not happen naturally under the present structure 
where the federal and state governments are subsidizing trucking 
through huge infrastructure investment without charging that back to 
the truckers or American shippers.

   Questions from Hon. Bob Gibbs for James Weakley, President, Lake 
                         Carriers' Association

    Question 1. At the hearing, you were asked to provide information 
on the importance of ice cutters on the Great Lakes. You elaborated 
with the economic costs and jobs lost because of inadequate ice 
breaking but also stated you would provide more details for the record. 
Please provide that information.
    Answer. The U.S.-flag vessel delays caused by the inadequate 
icebreaking during the 2019 ice season resulted in the loss of 5,421 
jobs that were dependent upon the U.S.-flagged fleet's ability to 
deliver cargo throughout the Great Lakes Region. Businesses that depend 
upon the Great Lakes maritime industry lost over $1 billion in revenue. 
The Federal government lost over $125 million in taxes and state and 
local governments lost $46 million. Impacts of delays on Canadian-flag 
lakers and oceangoing vessels flagged in countries other than the U.S. 
and Canada calling on the Great Lakes ports (salties) were not 
calculated.
    Although economic losses were not calculated for the 2016-2018 ice 
seasons, I have attached to this response the economic impacts for ice 
seasons 2014, 2015 and 2019. All impacts were calculated using the 
economic model developed by Martin & Associates for Great Lakes 
shipping. The model was updated in July of 2018. The main reasons for 
the increased impacts in 2019 are inflation and the use of the updated 
economic model.
    The U.S. Coast Guard (USCG) will report that they met their goal of 
keeping ``major'' waterways open 95% of the time during the 2019 ice 
season. LCA believes this measurement is not an accurate determination 
of success in regard to their mandate to keep waterways open to 
navigation by means of icebreaking operations.
    First, the USCG is only reporting on the status of four waterways 
in the Great Lakes which happen to be connecting waterways to the Great 
Lakes System (St. Marys River, the Straits of Mackinac, the Detroit/St 
Clair Rivers and Pelee Passage in Lake Erie). They call these waterways 
Tier 1 waterways and prioritize icebreaking operations with Tier 1 
highest priority to Tier 4 lowest. They do not report on the Lakes 
themselves or the harbors that ships must load out of and deliver goods 
into. For instance, a ship may not be able to transit out of Duluth, 
MN, transit Southern Lake Huron or enter Cleveland, OH due to ice, but 
that is not reported by the USCG. The USCG considers a Tier 1 waterway 
``open'' even if it is unpassable, if no vessel is actively trying to 
pass through it. In addition, the Canadian Coast Guard (CCG) is not 
bound to a tiered prioritizing metric, therefore they are often 
assisting Canadian vessels into and out of their Canadian ports and not 
in the USCG's defined Tier 1 waterways. We only recall one day in the 
spring 2019 ice season when a CCG icebreaker was deployed to a Tier 1 
waterway. The vessel deployed to the Straits of Mackinaw was quickly 
dispatched to the Canadian Port of Thunder Bay, when another CCG 
icebreaker there experienced an engine casualty.
    It is also important to note that the 95% that is reported to 
Congress is not Great Lakes specific, it is the Great Lakes and Eastern 
Seaboard aggregated. Therefore, a seldom difficult ice season in the 
Northeast is ultimately diluting the percentage of closures on the 
Great Lakes and further pushing the percentage of waterways open up. It 
is also noteworthy that the tiered waterway approach is a relatively 
new system and is not consistent with the ``reasonable demands of 
commerce'' standard stated in the Executive Order that created the 
USCG's icebreaking mission. LCA also questions the consistency of its 
application on the East Coast and the Great Lakes.
    Second, the USCG also does not take transit time into account when 
reporting their performance. A normal round trip from Duluth to 
Cleveland may take 96 hours. With difficult ice conditions on just one 
Lake or connecting waterway, delays can stretch the trip to over a 
week. With a defined shipping season from mid-March to mid-January, 
every shipment is critical and delays shorten the season even further. 
One U.S.-flag operator, based on the ice conditions and the USCG's 
decision not to keep an icebreaker on Lake Superior after the Soo Locks 
closed, delayed sailing its entire fleet. This delayed sailing is not 
captured by the USCG metric. In fact, given the way the USCG calculates 
waterway availability, delayed sailings contribute to their claimed 
success. If all of the vessels delayed sailing until May, given the 
USCG's metrics, they could claim ``100% availability of major 
waterways'' without logging any icebreaking effort.
    Third, the USCG waterway availability statistic does not measure 
whether commercial vessels can safely transit the waterway without an 
icebreaker escort. It measures whether they tried to make the transit, 
misjudged the ice conditions and got stuck. The USCG waterway 
availability statistic has little correlation with the availability of 
its Great Lakes icebreaker fleet because of commercial vessel 
operators' knowledge of that availability (or unavailability). Low 
availability of USCG icebreakers, however, definitely drives commercial 
vessel operators' winter voyage planning, which drives how much cargo 
will be shipped or left ashore during the winter season. Commercial 
vessels don't get underway if their operators know they are going to 
get struck for an extended period of time. They may not only delay 
sailing for the season, they will often wait at the dock until USCG 
assistance is available.
    LCA's economic impact analysis, given in the first paragraph, is 
based on how much cargo was not shipped because:
    1)  Commercial vessels either could not risk a voyage due to the 
unavailability of an icebreaker.
    2)  Commercial vessels proceeded with a transit through the ice 
without adequate icebreaker escort, but made no or slower progress than 
they would have if an icebreaker had been available to properly escort 
them.
    U.S.-flag lakers lost a total of 1,796.5 hours due to inadequate 
icebreaking during the 2019 ice season, which delayed or prevented a 
total of 4.9 million tons of cargo. LCA believes its economic analysis 
is a better measurement of the impact of USCG icebreaker availability 
than the USCG's major waterway availability statistic because 
commercial vessel operators have an economic incentive to attempt to 
ship cargo, but not get stuck in the ice (which consumes operating 
costs and risks expensive damage to the vessel). The greater the 
availability of USCG icebreakers, the less likely cargo shipments will 
be delayed or foregone. The USCG waterway availability statistic does 
not capture this dynamic. Nor does it capture the status of ports or 
waterways other than the connecting channels. The USCG often cites the 
number of vessels and tons assisted during the ice season. That is a 
measure of industry's efforts, not the USCG's. If a vessel is stuck for 
two days or two weeks in port, it is not captured in the USCG's 
metrics. In one instance last winter, the USCG ordered a U.S.-flag 
laker to slow down so one of the largest U.S.-flag lakers could serve 
as the icebreaker for the Canadian-flag tug barge unit that was too 
under powered to be the Tier 1 waterway (Straits of Mackinaw).
    Industry needs a predictable Federal icebreaking response in order 
to make logical business decisions. The current state of the USCG 
icebreakers is bleak. The USCG Service Life Extension Program (SLEP) 
for the 140-foot Bay Class icebreakers did not address the heart of the 
vessel, two main diesel engines. These engines are failing at a rapid 
pace and the 40-year-old icebreakers are not reliable. Last year the 
USCG Great Lakes icebreakers lost 246 operating days during the ice 
season, primarily because of icebreaker engine failures. One of the 
post-SLEP 140's missed the entire spring icebreaking season this year 
due to an engine casualty. The USCG has no plans to replace the most 
critical pieces of machinery. The engines could easily be replaced by 
commercial shipyards on the Great Lakes. This could be accomplished 
independent of the SLEP program.
     attachment a--economic impacts resulting from 2014 ice delays
    To estimate the economic impact of the unusually long ice season on 
the Great Lakes during the 2013-2014 winter season, year over year 
tonnage comparisons were made between December 2012-May 2013 and 
December 2013-May 2014. The data, showing tons by commodity, carried by 
the U.S.-flagged Great Lakes fleet, was supplied by the Lakes Carriers' 
Association. Using the 2010 Economic Impact study of the Great Lakes 
and St. Lawrence Seaway--U.S. Flagged Fleet, jobs per ton and revenue 
per ton ratios were developed for iron ore, coal, limestone/aggregates 
and other dry bulks. These ratios were then applied to the net decrease 
in tonnages from the 2013 winter shipping season to the 2014 winter 
shipping season. This methodology assumes that demand for these cargoes 
did not change from 2013 to 2014. From December 2013 through May 2014, 
cargo moved by the U.S.-flagged fleet decreased by 6.8 million tons 
from the previous year due to lost transit days caused by heavy ice. 
The economic impacts of these delays are presented in terms of jobs and 
business revenue in Table 1.

       Table 1--Economic Impact of Lost Tonnages due to Heavy Ice
------------------------------------------------------------------------
                                                         2014 Ice-Delay
                                                            Impacts
------------------------------------------------------------------------
JOBS
  Direct Jobs........................................              1,311
  Induced............................................              1,298
  Indirect...........................................              1,221
                                                      ------------------
    Total............................................              3,830
------------------------------------------------------------------------
BUSINESS REVENUE (1,000).............................           $705,145
------------------------------------------------------------------------


    The vessel delays caused by the 2014 ice season resulted in the 
loss of 1,311 jobs that are directly dependent upon the U.S.-flagged 
fleet's ability to deliver cargo throughout the Great Lakes Region. 
This results in the additional loss of 1,298 induced jobs that had been 
supported by direct job holders as they re-spent their wages/salaries 
within the regional economy. Businesses that depend upon the region's 
maritime industry lost over $705 million in revenues because of the ice 
delays. As businesses use their revenue to purchase goods and services, 
they support indirect jobs. The decrease in revenue and corresponding 
decline in purchases of goods and services resulted in the loss of 
1,221 indirect jobs. In total, 3,830 dependent jobs were lost due to 
the 2014 ice delays.
attachment b--economic impacts resulting from decreased tonnage during 
                          the 2015 ice season
    To estimate the economic impact of the 2015 winter ice season on 
the Great Lakes, tonnage comparisons were made between the January 
2015-April 2015 period and the average tonnage carried during those 
months from 2010-2013. Because the winter of 2014 was exceptionally 
severe, it was excluded from long-term average calculations so as not 
to skew the data. Tonnages carried by the U.S.-flagged Great Lakes 
fleet were provided for separate commodity groups by the Lakes 
Carriers' Association. Using the 2010 Economic Impact study of the 
Great Lakes and St. Lawrence Seaway--U.S. Flagged Fleet, jobs per ton 
and revenue per ton ratios were developed for iron ore, coal, 
limestone/aggregates and salt. These ratios were then applied to the 
net decrease in tonnages of each commodity, again comparing the 2015 
winter shipping season against the average tons carried during the 
2010-2013 winter shipping seasons. This methodology assumes that demand 
for these cargoes has remained constant and that the lost tonnages 
correlate to lower production levels by the end users. From January 
2015 through April 2015, cargo moved by the U.S.-flagged fleet 
decreased by 3.2 million tons from the 2010-2013 average due to lost 
transit days caused by heavy ice. The economic impacts of these delays 
are presented in terms of jobs and business revenue in Table 1.

       Table 1--Economic Impact of Lost Tonnages due to Heavy Ice
------------------------------------------------------------------------
                                                         2015 Ice-Delay
                                                            Impacts
------------------------------------------------------------------------
JOBS
  Direct Jobs........................................                674
  Induced............................................                667
  Indirect...........................................                628
                                                      ------------------
    Total............................................              1,970
------------------------------------------------------------------------
BUSINESS REVENUE (1,000).............................           $355,578
------------------------------------------------------------------------


    The vessel delays caused by the 2015 ice season resulted in the 
loss of 674 jobs that are directly dependent upon the U.S.-flagged 
fleet's ability to deliver cargo throughout the Great Lakes Region. 
This results in the additional loss of 667 induced jobs that had been 
supported by direct job holders as they re-spent their wages/salaries 
within the regional economy. Businesses that depend upon the region's 
maritime industry lost over $355 million in revenues because of the ice 
delays. As businesses use their revenue to purchase goods and services, 
they support indirect jobs. The decrease in revenue and corresponding 
decline in purchases of goods and services resulted in the loss of an 
estimated 628 indirect jobs. In total, 1,970 dependent jobs were lost 
due to the 2015 ice delays.
      attachment--economic impacts resulting from 2019 ice delays
    To estimate the economic impact of the typical ice season on the 
Great Lakes during the 2018-2019 winter season, we asked U.S.-flag 
carriers to report their delays in hours and the number of tons carried 
during their delays. The types of delays included being beset in the 
ice, at anchor awaiting an icebreaker, having to slow down due to 
inadequate icebreaking, waiting for Coast Guard permission to proceed, 
and waiting for a convoy to form. In addition we recorded hours lost 
due to repairing ice damage to vessels and the hours lost by vessels 
that delayed their initial sailing times due to inadequate icebreaking. 
We aggregated the fleet's lost hours and tons delayed and determined 
that a total of 409,729 tons of coal were delayed for 206 hours. We 
also calculated that 2,186,361 tons of iron ore were delayed for a 
total of 1,586.5 hours. Since the vessels operating were a combination 
of ``footers'' and smaller vessels, we used an average of 42,000 tons 
per trip. We also assumed that a typical round trip for a U.S.-flag 
laker takes 96 hours. Using those baseline assumptions, we determined 
that we could have carried 879,210 additional tons of coal and 
4,032,000 tons of iron ore had the fleet not lost time. In other words, 
we lost 21 trips of coal and 860 trips of iron ore among the 31 vessels 
reporting delays.
    The data, showing tons by commodity, lost by the U.S.-flagged Great 
Lakes fleet, was supplied by the Lakes Carriers' Association to Martin 
Associates. The July, 2018 updated Economic Impact study of the Great 
Lakes and St. Lawrence Seaway--U.S. Flagged Fleet, developed jobs per 
ton and economic impact per ton ratios for iron ore, coal, limestone/
aggregates and other dry bulks. These ratios were then applied to the 
estimated loss of 4,000,000 tons of iron ore and 900,000 tons of coal 
for the relatively average winter of 2018/2019. The economic impacts of 
these delays are presented in terms of jobs and business revenue in 
table below.

  Economic Impact of Lost Tonnages due to Inadequate Icebreaking in the
                       Average Winter of 2018/2019
 4,000,000 ton loss of iron ore and 900,0000 ton loss of coal due to ice
                                 delays
------------------------------------------------------------------------
 
------------------------------------------------------------------------
JOBS
  Direct Jobs........................................              1,925
  Induced............................................              1,666
  Indirect...........................................              1,829
                                                      ------------------
    Total............................................              5,421
------------------------------------------------------------------------
PERSONAL INCOME (1,000)
  Direct.............................................           $106,912
  Re-Spending/Local Purchases........................           $203,098
  Indirect...........................................            $80,454
                                                      ------------------
    Total............................................           $390,464
------------------------------------------------------------------------
BUSINESS REVENUE (1,000).............................         $1,044,044
------------------------------------------------------------------------
LOCAL PURCHASES (1,000)..............................           $187,193
------------------------------------------------------------------------
STATE AND LOCAL TAXES (1,000)........................            $46,429
------------------------------------------------------------------------
FEDERAL TAXES (1,000)................................           $125,518
------------------------------------------------------------------------

                       Source: Martin Associates

    The vessel delays caused by the 2018/2019 ice season resulted in 
the loss of 5,421 jobs that are dependent upon the U.S.-flagged fleet's 
ability to deliver cargo throughout the Great Lakes Region. Businesses 
that depend upon the region's maritime industry lost over $1 billion in 
revenues because of the ice delays. Due to the lost business revenue, 
the federal government lost over $125 million in taxes in addition to 
the $46 million lost by state and local governments.

                                    
</pre></body></html>
